<html>
<title> - REBUILDING THE CHEMICAL SAFETY BOARD: FINDING A SOLUTION TO THE CSB'S GOVERN- ANCE AND MANAGEMENT CHALLENGES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                    REBUILDING THE CHEMICAL SAFETY BOARD:
                     FINDING A SOLUTION TO THE CSB'S GOVERN-
                     ANCE AND MANAGEMENT CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2015

                               __________

                            Serial No. 114-8

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                                ____________
                                
                                
                     U.S. GOVERNMENT PUBLISHING OFFICE
94-103 PDF               WASHINGTON : 2015                   
                      
______________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  
                    
                    
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
         William McGrath, Staff Director-Interior Subcommittee
                       Joseph Brazauskas, Counsel
               Drew Colliatie, Professional Staff Member
                        Melissa Beaumont, Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2015....................................     1

                               WITNESSES

The Hon. Rafael Moure-Eraso, Chairman, U.S. Chemical Safety Board
    Oral Statement...............................................     5
    Written Statement............................................     7
The Hon. Manuel Ehrlich, Board Member, U.S. Chemical Safety Board
    Oral Statement...............................................    21
    Written Statement............................................    23
The Hon. Mark Griffon, Board Member, U.S. Chemical Safety Board
    Oral Statement...............................................    27
    Written Statement............................................    29
The Hon. Rich Engler, Board Member, U.S. Chemical Safety Board
    Oral Statement...............................................    37
    Written Statement............................................    39
Mr. Patrick Sullivan, Assistant Inspector General for 
  Investigations, Office of Inspector General, U.S. EPA, 
  Accompanied by Kevin Christensen, Assistant Inspector General 
  for Audit, Office of Inspector General, U.S. EPA
    Oral Statement...............................................    43
    Written Statement............................................    45

                                APPENDIX

Letter from the American Chemistry Council to the Committee......   108
Letter from the United Steelworkers to the Committee.............   111
Letter from former CSB Board Member William Wright to the 
  Committee......................................................   115
Letter from former CSB Board Member Gerald Poje to the Committee.   122
Written Testimony of former CSB Board Member Beth Rosenberg to 
  the Committee..................................................   127
Letter from former CSB member William Wark to the Committee......   130
Letter from former CSB Chairman John Bresland to the Committee...   133
February 12, 2015 Vantage Report titled, ``Briefing to CSB Senior 
  Leadership''...................................................   136
July 10, 2014 Carden Group Report titled, ``U.S. Chemical Safety 
  Board Path Forward Overview.''.................................   174
July 7, 2014 letter to the President from Chairman Issa and 
  Members........................................................   194
Government in the Sunshine Act 5 USC 522b........................   198
U.S. Chemical Safety Board Order 28..............................   203
Job posting on USAJOBS for a new Senior Executive Service 
  position of Managing Director at the Chemical Safety Board, 
  posted March 2, 2015...........................................   207
January 16, 2015 memorandum from the EPA Inspector General to the 
  President......................................................   212
February 2, 2015 Letter rom the White House Counsel to CSB 
  Chairman Rafael Moure-Eraso....................................   225
EPA Office of Inspector General Statement of Compliance form.....   226
Statement of Representative Gerald E. Connolly (VA-11)...........   227
U.S. Chemical Safety Board Order 23..............................   229
Letter from CSB Chairman Rafael Moure-Eraso to the EPA Inspector 
  General........................................................   249
Responses to questions for the record from Representative Gary 
  Palmer (AL-06) from CSB Board Member Manuel H Ehrlich, Jr......   250
Responses to questions for the record from Representative Gary 
  Palmer (AL-06) from CSB Board Member Mark A. Griffon...........   252


 REBUILDING THE CHEMICAL SAFETY BOARD: FINDING A SOLUTION TO THE CSB'S 
                  GOVERNANCE AND MANAGEMENT CHALLENGES

                              ----------                              


                        Wednesday, March 4, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 9 a.m., in room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the committee) presiding.
    Present: Representatives Chaffetz, Mica, Walberg, Amash, 
Gosar, DesJarlais, Gowdy, Lummis, Massie, Meadows, DeSantis, 
Mulvaney, Buck, Walker, Hice, Russell, Carter, Grothman, Hurd, 
Palmer, Cummings, Maloney, Norton, Lynch, Connolly, Kelly, 
Lawrence, Lieu, Plaskett, DeSaulnier, and Lujan Grisham.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time. Before I give an opening statement, I would 
like to take a moment and announce the newest member of the 
Subcommittee on Health--Health Care, Benefits and 
Administrative Rules. I'm pleased that the gentlewoman from New 
Mexico, Ms. Lujan Grisham, has been appointed.
    And I'm confident that she'll be an asset to the 
subcommittee and glad we can make that appointment.
    Today we're here to revisit issues related to the 
management of the Chemical Safety Board. This organization has 
suffered from a checkered history with regard to leadership. 
Much has been documented by this committee. In June 2014, this 
committee held a hearing about whistleblower reprisals and 
mismanagement at the Chemical Safety Board. And now, just 9 
months later, we find ourselves here again as things have not 
improved at all. In fact, in many cases, they have actually 
gotten worse as more information has come to light.
    The EPA inspector general found violations of the Federal 
Records Act by senior Chemical Safety Board's officials, and we 
will be discussing this today. In January, the EPA inspector 
general reported that Chairman Moure-Eraso, General Counsel 
Richard Loeb, and Managing Director Daniel Horowitz knowingly 
violated the Federal Records Act by using private emails to 
conduct official Chemical Safety Board business, despite 
previous testimony and assurances to this committee that they 
would not and had not been doing that for some time.
    The inspector general's findings are in direct contention 
with testimony that we heard by the Chairman of the Chemical 
Safety Board before this committee. The Chairman testified 
before this committee, on June 19, 2014, that the use of 
private emails had ceased in early 2013. The inspector general 
found--for the EPA--found, however, that the use of private 
emails continued through 2013 and even into 2014.
    Despite objection by some Board members, on January 28, 
2015, the Board suddenly and without warning passed a sweeping 
22-page order. That order reversed many longstanding orders 
that operated as a checkup to the power of the Chairman and to 
assure the proper functioning of the Board. This action was 
widely criticized by past and current Board members, industry, 
labor unions, all of which worry about the state of the 
Chemical Safety Board. The action was also timed to prevent 
input by a new Senate confirmed member of the Board.
    One of the other things that's deeply concerning to the 
committee is that the Chemical Safety Board employee 
satisfaction is at an all-time low. Only 26 percent of the CSB 
employees recently rated their senior leadership as 
satisfactory. And overall satisfaction was dead last in 2014, 
the ranking of Federal agencies. All of Federal Government, all 
of Federal Government, the Chemical Safety Board is dead last 
in terms of morale.
    These problems were confirmed by an outside firm retained 
to review the Chemical Safety Board management. That firm 
found: ``The agency still suffers from lack of trust in senior 
leadership, poor communication, ineffective goal setting, a 
lack of standard procedures, lack of trust, and a lack of 
followup by senior leadership, which contributes to a lack of 
accountability.''
    Instead of acknowledging the issues raised by the outside 
firm's report, Chemical Safety Board management appears to 
punish dissenters and discourage employees from bringing their 
concerns to Congress. In fact, an employee was removed from 
this position within minutes after overseeing an outside firm 
because the senior leadership was unhappy that the report 
showed that there were core problems at the agency. This same 
employee was then summarily demoted the day after speaking with 
committee staff about his concern.
    I'm here to tell you, we put up with a lot of things. We 
are not putting up with employee retaliation. Members of the 
Chemical Safety Board and throughout Federal Government have 
the ability and the opportunity to speak to Members of Congress 
and their staff, and when they do, there is to be no reprisal. 
For them to simply try to demote this person, change their 
title, take away responsibility because they talk to Congress, 
we are not putting up with that sort of retaliation. It's a 
very serious issue, and I know on both sides of the aisle, we 
do not take this lightly.
    Employees at the Chemical Safety Board work hard and are 
devoted to the agency's goals--goals have been beaten and 
demoralized. Nearly 50 percent of the employees have left since 
2011. Moreover, the Chemical Safety Board, under its current 
leadership, cannot effectively carry out its important mission. 
That's just not me as the chairman saying that. You get outside 
groups coming in who have paid a lot of money to come in and 
analyze the group. And we are going to read through some of 
their conclusions. It's not a pretty picture.
    We must ensure that the Chemical Safety Board returns to 
its core mandate and away from leadership that fails to lead 
and stifles employees' actions. The safety of hardworking 
Americans is important to this committee and will continue to 
do whatever it is that we need to do in order to fix the 
Chemical Safety Board. We should not have to have this agency 
come before this committee again, but the problems are getting 
worse, not better. We feel that we have been misled and that 
the employees have been suffering consequences in the 
management of this--this organization.
    Now, I would like to recognize the distinguished ranking 
member, Mr. Cummings from Maryland, for his opening statements.
    Mr. Cummings. Thank you very much, Mr. Chairman, and let me 
start off by saying that I fully agree with you that 
retaliation is just something that we will not stand for on 
both sides of the aisle.
    Mr. Chairman, it's been 9 months since our committee held 
its last hearing on the Chemical Safety Board. During that 
hearing last June, I said that it was clear that there were 
serious management problems that needed to be addressed. I also 
said that they were not new revelations. For example, Henry 
Waxman, the former ranking member of the House Energy and 
Commerce Committee, who helped establish the CSB in 1990, sent 
seven recommendations to address these challenges on May 2, 
2014.
    In addition, the inspector general of the Environmental 
Protection Agency, which has jurisdiction over the CSB, issued 
five audit reports since 2011 with 23 additional 
recommendations on these issues.
    In July 2014, the agency hired a management consultant that 
identified problems and made more recommendations, and the CSB 
also has an internal workplace improvement committee that has 
identified concerns and suggested even more improvements.
    Today I'm equally troubled to report that despite all of 
this feedback and all of these recommendations, things have not 
improved at the CSB. To the contrary, management problems at 
the agency appears to have gotten worse. Last September, the 
CSB hired another management consulting firm to address 
fundamental changes within the agency. This company, Vantage 
Human Resource Services briefed the Chairman and Board members 
on its findings last month on February 12, 2015. We obtained a 
copy of Vantage's presentation, which was based on interviews 
with agency employees. Vantage found that 80 percent of CSB 
employees feel: ``much, much frustration with top leadership--
80 percent.'' That is astounding. That is absolutely a stunning 
fact.
    Vantage also reported that 47 percent of employees have a, 
``perception of a climate where senior leadership discouraged 
dissenting opinion.'' That is nearly half the agency. Something 
is awfully wrong with this picture. This is the latest in the 
long list of negative reports the CSB Chairman has received 
about his senior leadership, but instead of using this feedback 
in a productive way, the Chairman and his managing director 
appeared to have retaliated against the CSB contracting officer 
in charge of the Vantage contract.
    On the same day that Vantage briefed the Board on its 
findings last month, the CSB Managing Director Daniel Horowitz 
removed the contracting officer of the Vantage contract and 
designated himself--himself--as the contracting officer 
instead. On the same day, the managing director asked the CSB 
Chairman for permission to search the emails of the former 
contracting officer, apparently looking for some incriminating 
evidence. Based on documents we now have obtained, it appears 
that the CSB Chairman agreed to this request despite the fact 
that it included no specific justification whatsoever. He said 
only that he wanted to, ``examine a confidential personnel 
issue.''
    Another troubling development occurred at a public meeting 
in Richmond, California, on January 28, 2015. Board Member 
Manny Ehrlich offered a sweeping proposal to consolidate the 
power in the CSB Chairman and to cancel three investigations. 
The motion came with no prior notice and no opportunity for 
Board member Mark Griffon to review the motion. Something is 
wrong with that picture. It also came after another Board 
member was confirmed by the Senate but before he was sworn in 
and able to vote.
    These allegations are appalling and they indicate that the 
CSB has gone off the rails, and it's shocking to the 
conscience. Yesterday President Obama nominated Vanessa 
Sutherland to be the new Chair of the CSB, something the agency 
sorely needs, in my opinion, but that does not end the matter.
    Until she is confirmed, sadly, the current Chairman 
apparently will remain in place at least for the remaining 3 
months of his term. I must tell you that concerns me greatly. 
So I want to hear from him directly. I want to listen to his 
explanations for these events. I want to understand why he 
believes he should remain in his position. And I want to know--
I really want to know--why he is not resigning, especially 
since he has now lost the confidence of the President of the 
United States of America.
    I would also like to hear the perspectives of the other 
Board members and the Office of the Inspector General of what 
reforms are needed to get this agency back on track. CSB has a 
critical mission. The agency was created to investigate 
industrial chemical accidents, and it has done landmark work, 
such as the 2014 report on the Deepwater Horizon explosion, but 
I remind all of you that we're better than that. We are better 
than where we are now and better than what has been happening 
in this agency. And so we owe it to the employees who are 
working hard every day to carry out the mission to ensure that 
significant and meaningful changes come out of this hearing.
    And with that, Mr. Chair, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I'll hold the record open for 5 legislative days for any 
Member who would like to submit a written Statement.
    We will now recognize the panel of witnesses, including the 
Honorable Rafael Moure-Eraso, Chairman of the U.S. Chemical 
Safety Board; the Honorable Manuel Ehrlich, Board member of the 
United States Chemical Safety Board; the Honorable Rich Engler, 
Board member of the Chemical Safety Board; Honorable Mark 
Griffon, Board member of the Chemical Safety Board; Mr. Patrick 
Sullivan, assistant inspector general for investigations in the 
Office of Inspector General at the United States Environmental 
Protection Agency. Mr. Sullivan is also accompanied by Mr. 
Kevin Christensen, assistant inspector general for audit, whose 
expertise may be needed during the questioning. We would like 
you to be sworn in as well.
    We welcome you all, and pursuant to committee rules, the 
witnesses will be sworn before they testify, so if you will 
please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you.
    Let the record reflect that all witnesses answered in the 
affirmative, and you may please be seated.
    We'll now recognize our panel of witnesses. And Mr.--or Dr. 
Moure-Eraso, the Chairman, we will now recognize you first.
    Mr. Moure-Eraso. Thank you.
    Chairman Chaffetz. Please push the button.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE RAFAEL MOURE-ERASO

    Mr. Moure-Eraso. Thank you, Mr. Chairman. I am Rafael 
Moure-Eraso, the Chairperson with the U.S. Chemical Safety 
Board, or the CSB. I have--I am a first-generation American who 
has dedicated his life to occupational safety and health. I 
have 15 weeks to go before I retire to my home near Boston and 
to my family and my grandchildren.
    I will start by frankly acknowledging your criticisms of my 
management during the last hearing. I was humbled by the 
messages I heard loud and clear. I took them to heart.
    I have worked together with other Board members and the 
staff to address the issues you raise. We have adopted a set of 
recommendations made by former Representative Henry Waxman 
aimed at improving the functioning of the Board. We have also 
formed an independent workplace improvement committee that is 
functioning. As you know, we contracted with a consulting 
company, Vantage, to provide coaching and other services to 
help us improve internal communications.
    We recently discovered that Vantage findings, prior from 
being presented to the Board, were altered through 
inappropriate interactions with the contractor. We have asked 
for the IG's--the inspector general--assistance in 
investigating this matter, the contractual matter.
    But the most important point I will make today is that we 
have been making rapid progress in the core mission of the CSB, 
what we were called to do. We have completed eight high-quality 
chemical accident investigation reports in the last 9 months, a 
record for the agency. These reports represent the culmination 
of years of hard work by our highly motivated investigators. 
These are wonderful public servants who have spent long months 
away from their families determining the root causes of 
horrible accidents.
    The number of open investigations, which was as an all-time 
high of 22 in June 2010, when I began my term, is now down to 
6. Five of those six remaining cases are on track to be 
completed by the end of the fiscal year, including the West 
Fertilizer explosion, the contamination of West Virginia 
drinking water, and the Deepwater Horizon blowout.
    Our Deepwater reports issued last year established for the 
first time why the blowout preventer failed to work properly. 
Many other investigations are having a lasting impact on 
safety.
    For example, California and Washington States are revamping 
the refinery safety rules following the CSB Chevron and Tesoro 
investigations when we completed this very last year.
    Finally, I would like to thank the IG for their efforts 
with us on Federal records management concerning the use of the 
nongovernmental email. In February, we received a letter from 
the White House Counsel concerning the IG report and have taken 
all the corrective actions he requested. The nongovernmental 
emails have been transferred to agency servers, as we recently 
informed the IG and the committee. We found that at least two 
other Board members and many staff have been using also 
personal email. Those emails have also been preserved and 
moving to the agency servers.
    In addition, on February 19, we provided training to all 
Board members and as the new requirements on the law of the 
preservation of nongovernmental report.
    As my time as Chairman goes to a close, we will be leaving 
behind a stronger agency. We have two outstanding new 
appointees, Manuel Ehrlich and Rick Engler, one from industry 
and one from labor, and both tremendously enthusiastic about 
the mission. It's a perfect fit.
    All of us look forward to the confirmation and appointment 
of President Obama's new nominee as Chair, Vanessa Sutherland, 
who was announced yesterday. As we work through your concerns 
to make this an even better agency, I assure you that whatever 
my shortcomings have been, my commitment to the CSB mission 
have never wavered. I am looking forward to working collegially 
with the new members for the few weeks that remain. Thank you.
    [Prepared Statement of Mr. Moure-Eraso follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Mr. Ehrlich, you are now recognized for 
5 minutes.

            STATEMENT OF THE HONORABLE MANUEL EHRLICH

    Mr. Ehrlich. Thank you, and good morning.
    My name is Manny Ehrlich. I'm a chemist who came to CSB 
from a 50-year career in the chemical industry, mostly with 
BASF Corporation. I served in a variety of roles, including 
executive management, and I eventually led emergency response 
efforts at chemical accidents across North America.
    My role as a Board member is especially meaningful to me. I 
worked in a plant in which two workers lost their lives in a 
chemical accident. It was my responsibility to notify their 
wives. It is an experience you never forget and one I hope none 
of you ever have to be involved in.
    Only last month, Chairman Moure-Eraso and I visited the 
DuPont facility in LaPorte, Texas, where we were investigating 
a toxic gas release that killed four workers. This trip 
reminded us of the agony associated with the loss of life at a 
chemical plant and reaffirmed our commitment to work diligently 
at the CSB to prevent future accidents.
    From what I have seen at my time in the agency, staff 
productivity is high. The work of the investigators is very 
stressful, but they are focused and dedicated. I'm impressed 
with the consistently high quality of the investigation reports 
and recommendations.
    Mr. Chairman, I am aware of the issues this committee has 
raised concerning management at the agency. Coming from the 
private sector, my approach is that we need clear delineation 
of goals, procedures, and responsibilities while we work with 
the committee to find solutions to unresolved issues.
    I would like to take this opportunity to say that I have a 
high degree of respect for Chairman Moure-Eraso and the high 
work output at the CSB during his tenure. He has been under 
heavy fire, but I know him as a man of high integrity that is 
dedicated to preventing chemical accidents and saving workers' 
lives and is truly committed to the agency's mission.
    He's a working Chairman, who is in the office every day. He 
travels to accident sites and is fully immersed in the life of 
the agency. In my judgment, as a former industry executive, a 
large part of the Board's problems have been due to the 
confused and ambiguous lines of authority between the Board, 
career staff, and the Board Chair. It appears that some Board 
members work with a few career staff that curtail the 
appropriate administrative authority of the Board Chair, thus 
the chain of command within the agency has been undermined.
    The Chair is facing internal opposition, tension, and 
criticism as he simply tried to undertake the basic functions 
of the agency. During my time at the agency, I witnessed 
employee actions that I have never seen in the private sector 
which have a very negative effect on the organization. An 
example is a situation the Chair referred to in which two staff 
members intentionally doctored a report by our organizational 
consultant. They took out examples of progress being made and 
added in very negative comments about senior management, and 
they improperly instructed the contractor to keep their 
involvement secret.
    I put forth a motion in January 2015 to clarify ambiguities 
about the Chair's administrative authority. My motion was about 
the future of the agency and the authority and leadership 
capacity of future Chairs. The agency needs to function in a 
more businesslike manner with clearer lines of accountability, 
responsibility, and authority. I believe my motion conforms to 
private sector practices as well as the practices used at 
agencies like the NTSB. Most importantly, it clarifies the 
appropriate division of responsibilities between the Board and 
the Chair.
    It is now time to move forward and not look back. Mr. 
Engler and I will be working to ensure that the strong labor 
and environmental coalition background that he brings to the 
Board and the industry background that I bring will be used 
collaboratively. We plan to meet jointly with industry and 
union stakeholders to build bridges and gain acceptance of key 
CSB recommendations.
    I look forward to working collegially with Mr. Engler and 
future Board members. I'll be pleased to answer any questions 
you have. Thank you.
    [Prepared Statement of Mr. Ehrlich follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Mr. Griffon, you are now recognized for 
5 minutes.


             STATEMENT OF THE HONORABLE MARK GRIFFON


    Mr. Griffon. Thank you. Good morning and thank you, 
Chairman Chaffetz, Ranking Member Cummings, members of the 
committee. Thank you for holding this hearing today. This 
committee's oversight is both timely and urgent. My name is 
Mark Griffon. I was nominated by President Obama in March 2010 
and confirmed by the Senate in--in June 2010 to a 5-year term 
ending in June 2015.
    I would like to focus my testimony on two key issues. One, 
the late night vote in a Board meeting in Richmond, California, 
without any advance notice, in which the agency governance 
system was stripped of necessary checks and balances; and two, 
the failure to honor commitments made to this committee in the 
June 19, 2014, hearing, pursuant to Congressman Waxman's 
recommendations.
    First, the Board action in Richmond, California. In 
Richmond, California, on January 28 at a public meeting 
regarding the Chevron investigation, a surprise motion was 
presented by Board Member Ehrlich. The multipart motion 
included fundamentally modifying the governance of the agency 
and canceling three investigations, the Citgo refinery 
incidents in Corpus Christi, Texas; the explosion of the 
Horsehead facility in Monaca, Pennsylvania; and the explosion 
at the Silver Eagle refinery in Woods Cross, Utah.
    My efforts to table the matter failed and the motion passed 
2 to 1. The urgency of taking up a sweeping motion just prior 
to Mr. Engler joining the agency has not yet been explained. 
The resulting Board order on governance, Board Order 2015-1, 
consolidated power with the Chair and eliminated specific 
checks and balances, including Board authorities related to the 
development of the budget and the use and distribution of 
appropriated funds; the approval of large expenditures; the 
appointment of heads of administrative units; career Senior 
Executive Service appointments. The importance of these 
authorities was discussed in a letter from Senator Lautenberg 
back in 1999, shortly after the agency was established.
    In this letter, Senator Lautenberg clearly indicates that 
the Chairperson shall exercise the executive and administrative 
function of the Board but must perform those functions, ``under 
the direction and approval of the Board as a whole,'' The 
intent, as expressed by Senator Lautenberg, is lost in the 
motion passed on January 28, 2015.
    The second key issue, CSB action subsequent to Congressman 
Waxman's recommendations. In a May 2, 2014, letter to the 
Board, Congressman Waxman put forward several recommendations 
to begin to address some of the management problems. These 
recommendations, which I consider reasonable--a reasonable 
starting point toward improving agency management, have not 
been fulfilled.
    I offer the following observations: One, communication with 
the Board has not improved. This is best illustrated by the 
lack of any communication with me leading up to the January 28, 
2015, meeting. Two, rather than attempt to vote to modify Board 
Order 28, an order that delineates the authorities of the Board 
and the Chair, the Chairman unilaterally declared Board Order 
28 invalid based on a CSB Office of General Counsel opinion. 
Three, despite Congressman Waxman's recommendations, the 2013 
recommendation from the EPA IG, and numerous requests by Board 
members, an overall investigations plan has not been completed 
since I've been on the Board. And four, a plan for completing 
the investigations protocol has never been provided to the 
Board.
    So what is the remedy? In the last year, the agency has 
hired management consultants and executive coaches and set up a 
workplace improvement committee purportedly to improve employee 
morale and make necessary management reforms. Despite these 
activities, no meaningful management changes have been made.
    I believe the following actions should be taken. No. 1, the 
entire motion made in the January 28, 2015, meeting should be 
rescinded. Two, Board Order 28, dated August 8, 2006, should be 
reinStated. Three, the Board should make a clearcut statement 
of policy that the CSB orders are the governing procedures of 
the agency. Four, the Board should make a commitment to hold 
monthly public business meetings. And five, the oversight and 
recommendations provided by the EPA IG are useful and the 
relationship with the EPA IG must be rebuilt. The agency's 
mission is very important, and these problems must be resolved. 
Thank you for your consideration.
    Chairman Chaffetz. Thank you.
    [Prepared Statement of Mr. Griffon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
        
    Chairman Chaffetz. Mr. Engler, you are now recognized for 5 
minutes.

             STATEMENT OF THE HONORABLE RICH ENGLER

    Mr. Engler. Good morning. Thank you, Chairman Chaffetz, 
Ranking Member Cummings, and the committee members for asking 
me to testify at this important and timely hearing. Excuse me. 
My name is Rick Engler. I was confirmed by the Senate to be a 
CSB member last December 16, and I was commissioned to the 
Board for a 5-year term by President Obama on February 5, 2015. 
I am thus the newest CSB members.
    Before this appointment, I was director of the New Jersey 
Work Environment Council, a collaboration of labor, community, 
and environmental organizations where preventing chemical 
disasters was a primary focus. The CSB and its dedicated staff 
have accomplished much over its short history. Its 
investigations, its recommendations, reports are essential 
tools for preventing tragic chemical incidents, which continue 
today.
    During my first few weeks at CSB, I've reviewed extensive 
material, including CSB reports, recommendations, and briefing 
documents, inspector general findings, materials from this 
committee's hearing on the CSB last June 19, and the new 
Vantage report discussed earlier. I've spoken to some past and 
all current Board members, and many but not all CSB staff as 
well as some outside stakeholders.
    Excuse me. My learning process is not done, yet I already 
conclude that major internal changes must occur for the CSB to 
best fulfill its critical mission. Foremost, changes are needed 
to resolve the controversy over CSB governance and the powers 
of the Chair in relationship to other members. The serious 
engagement of all CSB members in major decisions provides 
critical checks and balances and would result in the best 
decisions.
    Unfortunately, Board Order 2015-1 was approved by a 2-to-1 
vote on January 28, 2015, and has been--as has been already 
pointed out. This action took place after I was confirmed by 
the U.S. Senate but just 5 business days before I was sworn in 
as a CSB member. It consolidated power in the Chair and 
eliminated, for example, the four--the role of four other 
members in deciding budgets, major use of funds, key contracts, 
and approving appointment department heads.
    Well, I believe this will have a negative outcome on the 
performance of the agency. And I should point out, in a very 
small agency that has roughly 40 staff, the 5 Board members 
are, in my view, should be active participants in the work, not 
sitting aside from the work and making decisions but doing 
work. And that means that they should be participants actively 
in key decisions as well.
    So I would urge the Board to rescind its overall motion of 
January 28. I respectfully ask this committee to urge the CSB 
to take such action. A new process with deadlines to ensure the 
both governance rules and policies with checks and balances 
could then begin.
    Some other changes are also urgently needed to accomplish 
the following: Address the serious issues raised by the Vantage 
report, including poor internal communications, lack of 
consistent policies and procedures, and employee frustrations 
with senior management, which have all led to very low staff 
morale, and I would like to add that, regardless of the 
process, the substance of the Vantage report is very, very 
troubling. So, regardless of what interactions took place, the 
essential message there gives me grave concern about the issues 
that have been raised.
    I will work to ensure that CSB members and staff work 
collegially, where all views are respected even when there are 
agreements--whether it's over science, whether it's over 
policy, whether it's over recommendations. And I would also 
like to add that I have spent decades in the State of New 
Jersey working for strong whistleblower protection. One example 
is that I helped lead an effort to amend our Conscientious 
Employee Protection Act, which passed legislation in the State 
of New Jersey with virtually unanimous bipartisan support, that 
required an annual notice to go to every private-and public-
sector employee in the State, making sure that they understand 
that they had a right to speak out, an obligation to speak out 
if they found violations of law or public policies. I feel 
deeply about whistleblower protections.
    I also think that the Board needs to adopt a new project-
management-tracking system with clear objectives, benchmarks, 
and internal controls, that the Board must engage stakeholders, 
that there must be frequent well-publicized business meetings. 
And I reject any notion that carrying out the people's business 
by a public agency is merely theater. And I look forward to a 
new relationship with the Office of Inspector General. And I 
will anticipate--in fact, I'll do it right now--I would seek a 
briefing from the inspector general on all the outstanding 
issues. And I look forward to rebuilding that--that 
relationship.
    Chairman Chaffetz. I thank the gentleman.
    [Prepared Statement of Mr. Engler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Now recognize Mr. Sullivan from the 
Office of the Inspector General. Now recognized for 5 minutes.

                  STATEMENT OF PATRICK SULLIVAN

    Mr. Sullivan. Good morning, Chairman Chaffetz, Ranking 
Member Cummings, and members of the committee.
    I am Patrick Sullivan, assistant inspector general for 
investigations for the EPA and the Chemical Safety Board. Thank 
you for inviting me to appear before you today.
    I plan to discuss two matters related to CSB.
    The first is a report of investigation that Inspector 
General Arthur Elkins sent to the President on January 22 of 
this year addressing conduct by CSB Chairman Rafael Moure-Eraso 
and two of the senior staff members. The second relates to our 
audit work at CSB.
    I will provide an overview of CSB's document production and 
its use of nongovernmental email systems for official 
communications. On or about February 6, 2013, the OIG received 
information alleging that CSB officials were conducting 
official business via nongovernmental email accounts. During 
our investigation, the OIG made a request to the CSB for 
communications pertaining to official CSB matters that were 
sent via nongovernmental email systems.
    CSB declined to provide all the requested documents and 
provided some documents and emails in redacted form. This 
refusal of access to the OIG constituted a particularly serious 
or flagrant problem under the IG act. And Inspector General 
Elkins was compelled to issue a 7-day letter to Chairman Moure-
Eraso on September--in September 2013. CSB nevertheless again 
refused to provide the emails and forwarded the IG's 7-day 
letter along with the CSB response to Congress.
    In June 2014, this committee held a hearing on these 
issues. Following the hearing, the committee directed the CSB 
to turn over the emails to the OIG, and the agency provided a 
number of responsive documents. My office completed its 
investigation, finding information sufficient to support 
conclusions that Chairman Moure-Eraso and Mr. Loeb purposefully 
used private nongovernmental email systems to communicate on 
CSB matters. Also, these communications were not preserved as 
official records.
    Regarding the OIG report of investigation on February 9, 
Chairman Moure-Eraso responded in writing to the White House 
Counsel. We are awaiting the President's determination as to 
whether disciplinary action is warranted. At various times, 
Chairman Moure-Eraso and Mr. Loeb explained what action was 
taken to correct the use of nongovernmental email systems for 
official CSB communications.
    In its February 2015 letter to the White House Counsel, the 
Chairman Stated, ``All the individuals who are cited in the 
OIG's Memorandum of Report and Investigations of January 16, 
2015, have zealously abided by the IG's email preservation 
recommendations since the OIG first made us aware of this 
issue,'' More recently, in fact just 2 days ago, on March 2, 
Inspector General Elkins received a letter from the Chairman 
saying that remedial actions have been taken at CSB. But we 
have yet to receive statements from the Chairman, Mr. Loeb, and 
Mr. Horowitz, which was asked for in August 2014, certifying 
that they have fully complied with the OIG's request for 
documents.
    During our investigation, a document requested--a document 
request to Mr. Horowitz turned up a nongovernmental email 
communication among him, Chairman Moure-Eraso, and Mr. Loeb, 
dated August 21, 2013. The date is relevant because it occurred 
after Mr. Loeb told congressional investigators in the OIG that 
the use of nongovernmental emails for official business had 
ceased. Further, we found emails between Mr. Loeb and Mr. 
Horowitz sent via nongovernmental email accounts pertinent to 
previously received allegations from a confidential source that 
a high-level employee in the Office of Special Counsel had 
compromised the identities of whistleblowers at the CSB.
    We have an ongoing--we have ongoing audits on CSB 
contracts, purchase card improper payments, and CSB governance. 
A recent CSB Board abolished 18 Board orders, which eliminated 
internal controls that were being reviewed as part of an 
ongoing OIG audit. There are five CSB related OIG audit reports 
with open and unresolved recommendations. Agencies are supposed 
to be establish a resolution process for such situations. 
However, the CSB has never done so.
    Today, I believe I have several areas of significant 
concern with regard to potential waste, fraud, and abuse as 
identified by the EPA OIG in our investigative and audit work.
    Mr. Chairman, this concludes my prepared statement. My 
colleague, Kevin Christensen, our assistant inspector general 
for audit, and I will be prepared to answer any questions that 
you and the committee may have. Thank you, sir.
    Chairman Chaffetz. I thank the gentleman.
    [Prepared Statement of Mr. Sullivan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
    Chairman Chaffetz. We'll now recognize the gentleman from 
Michigan, Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you to 
holding this hearing. It's important that the citizens of our 
great country, whether they agree or disagree with the policies 
that come from Congress or come from agencies, that they can 
expect that we play within--within the boundaries of the 
playing field using the rules of play. So I appreciate this--
this hearing.
    Mr. Sullivan, the EPA inspector general confirmed that 
Moure-Eraso, Loeb, and Horowitz violated the Federal Records 
Act. Are you certain that you've determined the entire scope of 
their use of private email accounts?
    Mr. Sullivan. No, sir. We cannot be certain until we get a 
certification from each individual that they have complied with 
our request. They have not done so yet.
    Mr. Walberg. Well, based upon your investigation, were any 
other CSB employees or Board members involved in the use of 
private email accounts to conduct official business with Moure-
Eraso, Loeb, or Horowitz?
    Mr. Sullivan. Based on our investigation, we focused our 
inquiry on Mr. Moure-Eraso, Mr. Loeb, and Mr. Horowitz. On 
March 2, we received a letter from the Chairman indicating that 
additional CSB members had utilized private email accounts. 
This first came to our attention on March 2. And we are 
currently examining that information. And we intend to pursue 
further inquiries in that regard.
    Mr. Walberg. Have Moure-Eraso, Loeb, or Horowitz taken 
steps to ensure that their previous private email 
communications have been entered in the CSB records?
    Mr. Sullivan. They have asserted that to us, sir. That's 
correct.
    Mr. Walberg. At this time----
    Mr. Sullivan. But we have not confirmed that. That's what 
they've asserted to us, but we have not physically checked to 
ensure that those records are preserved, but we intend to do 
so.
    Mr. Walberg. OK. Mr. Moure-Eraso, have you taken steps to 
include all private email communications that you used to 
conduct official CSB business into the Federal record?
    Mr. Moure-Eraso. Yes. In February of this year, we received 
a letter from the White House in which they--they say that if--
excuse me. Let me start again.
    We believe that, at this time, we are in compliance with 
all regulations and with all the requests of the IG. All 
relevant emails have been transferred to government servers for 
recordkeeping. I certify my own certification in July of last 
year, 2014, and after reviewing----
    Mr. Walberg. Dr. Moure-Eraso, let me make it very clear, 
under oath, you are stating this----
    Mr. Moure-Eraso. I can send you to a letter that I sent 
through email in which I made the certification. If you want, I 
can quote it from it. It's right here. My letter say to Mr. 
Elkins, July 15, 2014, last two paragraphs: Accordingly, I 
believe that all documents requested by your office covering 
the period to January 2012 to the present have been fulfilled. 
The CSB chief information officer was responsible for 
conducting and overseeing these searches, and based on his 
assurances and to the best of my knowledge and belief, the 
documents provided to your office satisfy all outstanding 
requests concerning this matter.
    This was submitted to Mr. Elkins in July 15, 2014.
    Mr. Walberg. Let me move further on this. Is--is--you 
indicated that your personal email account to seek--was used to 
seek Mr. Loeb's legal opinion on draft communications as part 
of the communication that you had. Is that the only subject 
matter contained in these emails?
    Mr. Moure-Eraso. There were some other subject matters. We 
used to use the Gmail to transmit publications in which the CSB 
were mentioned. We discovered the publication, and I will send 
him a copy to----
    Mr. Walberg. Well, did--did you in fact use a personal 
email address to conduct almost all CSB business that involved 
Loeb and Horowitz?
    Mr. Moure-Eraso. That is not correct, no. That is not the 
case.
    Mr. Walberg. Mr. Sullivan, what is your understanding of 
the subject matter of emails exchanged between Moure-Eraso, 
Loeb, and Horowitz that violated the Federal Records Act.
    Mr. Sullivan. There were numerous discussions of CSB 
business, which should have been covered under the dot-gov 
email accounts. Specifically, though, the issue of the 
compliance that we requested, we sent a request from Mr. 
Horowitz, Mr. Loeb, and Mr. Moure-Eraso to fill out a form. 
It's a statement of compliance, and we asked them to certify 
that they completed the correct record searches using correct 
search terms and that they've searched their private email 
accounts. We've yet to receive this document back certifying 
that they've done that.
    Mr. Walberg. Is that the document that Mr. Moure-Eraso 
referred to?
    Mr. Sullivan. No, he sent a letter saying that he searched 
the records, but neither of the three gentleman we've requested 
have submitted this document to us specifically stating exactly 
the methodology they used to conduct the searches. That's what 
we need to certify that they're in compliance.
    Mr. Walberg. OK. Thank you.
    My time is expired.
    Chairman Chaffetz. Thank the gentleman.
    Now recognize the gentlewoman from Illinois, Ms. Kelly for 
5 minutes.
    Ms. Kelly. Thank you, Mr. Chair, and I thank you and the 
ranking member for holding this hearing. Since 2010, the 
Federal Employee Survey results indicate dissatisfaction with 
the governance of CSB by senior management. CSB ranks near the 
bottom in a comparison of very small agencies with a high 
percentage of staff reporting that they would not recommend the 
CSB as a good place to work.
    Mr. Chairman, are you aware of these survey results?
    Mr. Moure-Eraso. Yes, Congressman, I am aware.
    Ms. Kelly. In September, 2014, CSB commissioned a study by 
Vantage Human Resource Services to help the agency address its 
challenges. Is that correct?
    Mr. Moure-Eraso. That is correct.
    Ms. Kelly. And, in February 2015, you received a report in 
which Vantage provided its findings. We obtained a copy of this 
report. And I would like to walk through them. One of the 
findings was that 47 percent of CSB employees felt that senior 
leadership discouraged dissenting opinions.
    Mr. Chairman, are you aware that nearly half of your 
employees don't feel as if they can disagree with the agency's 
position on issues without retaliation?
    Mr. Moure-Eraso. That's what the survey seemed to imply, 
yes.
    Ms. Kelly. Excuse me?
    Mr. Moure-Eraso. That's what the survey seems to indicate.
    Ms. Kelly. This concern was raised last June by former 
Board Member Beth Rosenberg, who said, ``Those whose opinions 
differed from those of senior leadership are marginalized and 
vilified. At the CSB, disagreement is seen as disloyalty, 
criticism is not welcome, and staff fear retaliation.''
    Do you disagree with the results of this survey, Mr. 
Chairman?
    Mr. Moure-Eraso. I don't disagree with the results of the 
survey, but I disagree with the statements that you mention 
from the former Board member.
    Ms. Kelly. OK. Why do you disagree?
    Mr. Moure-Eraso. Because I think that people have the 
option in the agency to express their views and to discuss it 
with everybody. That has been my policy.
    Ms. Kelly. But you did say you agree with the--or you had 
the results of the survey. So the employees don't seem to agree 
with--that--they don't seem to feel free to be able to express 
themselves by the results of the survey.
    Mr. Moure-Eraso. Yes. I think that the employee--the 
employees disagree with my view.
    Ms. Kelly. The report also finds that 60 percent of the 
employees felt that there was a lack of accountability and a 
lack of follow-through by senior leadership. Were you aware of 
that?
    Mr. Moure-Eraso. This says that. Also I would like to say 
that the report said that 70 percent of the people agree that 
they feel that they are accountable for achieving results and 
also that there have been 20 percent improvement since 2013 of 
more than two-thirds of the issues that were raised in the 
survey.
    Ms. Kelly. OK. In addition, 80 percent of employees felt 
that conflict among Board members is having a negative impact 
on the agency.
    Mr. Griffon, you have served for nearly 5 years now. Do you 
agree with this finding, and if so, why?
    Mr. Griffon. Yes, I do agree with this finding. Thank you 
for the question. I think that the conflict on the Board--when 
Board orders are continuously violated and the Board is 
circumvented, it creates conflict on the Board. And it has 
resulted in staff concerns. And I shared--I think some Board 
members, including myself, shared the frustration of the staff 
that we can't work as a unit, work as a full Board. This 
frustration forced Dr. Rosenberg to leave after 17 months.
    Ms. Kelly. OK. Thank you.
    Mr. Chairman, you wrote a letter to the IG 2 days ago 
requesting investigation into potentially inappropriate 
communications and interactions by CSB employees with Vantage. 
Is that correct?
    Mr. Moure-Eraso. That's correct, yes.
    Ms. Kelly. Is it fair to say that you do not agree with the 
conclusions about CSB senior management?
    Mr. Moure-Eraso. I am open about the conclusions of 
Vantage, but what I discovered is that the report itself have 
been compromised by two CSB senior members. They seem to have 
influenced the contractor to insert critical language that they 
theirselves have written and eliminated the language that where 
the consultants believe that CSB was making progress. This make 
it appear that the consultants were highly critical of senior 
leadership. They did this in secret and told the contractor to 
keep it confidential. I have requested that the IG investigate 
this contractor relationship that seems to be compromised and 
that seems to me that loses the integrity of the results.
    Ms. Kelly. I have one more question so let me get my 
question in. Mr. Griffon, is there an example of how employees 
who express opinions that are different from or critical of 
senior management are treated?
    Mr. Griffon. Yes. I think one--one obvious case involved a 
safety case recommendation that was made and discussed in the 
Chevron report in California, and there are many staff that 
felt at--felt as though it needed further examination as I do, 
and they felt strongly that if they brought that up, that was 
disloyalty, and they just were hushed essentially.
    Ms. Kelly. Thank you, and thanks for being here.
    Chairman Chaffetz. Thank you.
    And I'll recognize the gentleman from South Carolina, Mr. 
Gowdy for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Dr. Moure-Eraso, in June 2014, you had been sworn and were 
asked a series of questions by our chairman, one of which was, 
have you ever used personal email for official business or 
communication? And, again, under oath, Dr. Moure-Eraso, your 
answer was, Well, yes, out of ignorance.
    What was the source of your ignorance?
    Mr. Moure-Eraso. Well, what I found when I get into the 
agency is that it was a normal custom that----
    Mr. Gowdy. Who did you--who told you that with specificity?
    Mr. Moure-Eraso. Well, I use--saw the experience that 
everybody used Gmail for certain communications.
    Mr. Gowdy. Everybody?
    Mr. Moure-Eraso. Everybody that communicated with me, yes.
    Mr. Gowdy. Did you--did you consult any manuals? Did you 
seek any legal guidance as to whether or not that was in 
compliance Federal Records Act?
    Mr. Moure-Eraso. My understanding at the time is that 
communications through Gmail were acceptable and----
    Mr. Gowdy. Well, good. I'm glad you brought that up because 
your answer continued, At the beginning of my tenure, I used to 
write drafts or positions.
    When did your tenure begin, Dr. Moure-Eraso?
    Mr. Moure-Eraso. In June 2010
    Mr. Gowdy. So the beginning of you tenure would reasonably 
be construed as what? Since you answered under oath that you 
limited yourself to using personal email during the beginning 
of your tenure, what's a reasonable understanding of the 
beginning of your tenure?
    Mr. Moure-Eraso. I told you, June 2010.
    Mr. Gowdy. Six months? 12 months?
    Mr. Moure-Eraso. Three months.
    Mr. Gowdy. Three months. So your testimony is you did not 
use personal email more than 3 months after the beginning of 
your tenure, which would be in 2010?
    Mr. Moure-Eraso. No, that is not my answer. What I did----
    Mr. Gowdy. Well, I'm reading--I'm reading your answer, and 
your answer was, At the beginning of my tenure, I used to write 
drafts or positions.
    Mr. Moure-Eraso. Yes, right. That is----
    Mr. Gowdy. Did you ever use--did you ever use personal 
email after the beginning of your tenure, which you defined as 
3 months?
    Mr. Moure-Eraso. When I was notified by my----
    Mr. Gowdy. I really have----
    Mr. Moure-Eraso [continuing]. Counsel that this was not a 
good recordkeeping practice----
    Mr. Gowdy. I really am----
    Mr. Moure-Eraso [continuing]. I stopped doing it.
    Mr. Gowdy [continuing]. Looking for a yes or no answer 
initially, and then you are welcome to explain. Did you use 
personal email after you had been on the job 3 months?
    Mr. Moure-Eraso. Probably yes.
    Mr. Gowdy. Probably yes or yes?
    Mr. Moure-Eraso. Yes. I mean----
    Mr. Gowdy. OK.
    Mr. Moure-Eraso. I didn't know that I couldn't.
    Mr. Gowdy. See there, that wasn't that complicated. The 
answer is yes.
    Mr. Moure-Eraso. Yes. I did know----
    Mr. Gowdy. The answer is yes.
    Mr. Moure-Eraso [continuing]. I did recognize that it was 
not a good recordkeeping practice.
    Mr. Gowdy. And then you went on to say----
    Mr. Moure-Eraso. It was pointed out to me, and I ceased to 
do this.
    Mr. Gowdy. The court reporter is going to have enough 
trouble without us talking over each other, Dr. Moure-Eraso.
    You also said that you used to write drafts or positions 
before I would put it as, and then you were cutoff. Did you 
ever use personal email to do anything other than write drafts 
or positions?
    Mr. Moure-Eraso. Yes, I transmitted----
    Mr. Gowdy. All right. So that answer that you gave to 
Chairman Chaffetz was incorrect in multiple ways. First of all, 
you did use it at the beginning of your tenure, and 
secondarily, you did use it for more than just drafts or 
positions.
    And then the chairman said, When is the most recent time 
that you used your personal email?
    And I found this answer instructive. You said, We stopped 
the practice. Who is ``we''?
    Mr. Moure-Eraso. Well, the people that I write emails to 
and people that write emails to me, so----
    Mr. Gowdy. Does ``we'' include you?
    Mr. Moure-Eraso. Of course.
    Mr. Gowdy. So your testimony would have been that I stopped 
that practice about a year and a half ago. If ``I'' is included 
in the word ``we,'' then your answer was, I stopped that 
practice about a year and a half ago.
    Mr. Moure-Eraso. I don't know the exact date as you are 
asking for, but yes, I stopped the practice.
    Mr. Gowdy. I'm--I'm looking at your exact testimony. That's 
what I'm looking at. And you said----
    Mr. Moure-Eraso. I don't know----
    Mr. Gowdy [continuing]. You stopped it----
    Mr. Moure-Eraso [continuing]. The exact day.
    Mr. Gowdy. You said you stopped it a year and a half prior 
to when Chairman Chaffetz asked you about it. Do you agree that 
a common understanding of a year and a half would be 18 months? 
Is that a common understanding of a year and a half? Do you 
disagree that a year and a half would be 18 months, Dr. Moure-
Eraso?
    Mr. Moure-Eraso. Mr. Congressman, I cannot tell you an 
exact day. I'm sorry.
    Mr. Gowdy. Well, you gave Chairman Chaffetz an exact date 
under oath.
    Mr. Moure-Eraso. I said----
    Mr. Gowdy. Under oath you said a year and a half ago----
    Mr. Moure-Eraso. I said at the beginning of my tenure.
    Mr. Gowdy. I've moved on to another question, Dr. Moure-
Eraso.
    I've moved on to the second question and your second 
answer, which was we stopped that practice about a year and a 
half ago, and what I find vexing, Doctor, is this was testimony 
in June 2014, so a year and a half ago would have been some 
time in early 2013. And here I am looking at personal emails 
you sent in August 2013, well within a year of when you gave 
that testimony to Congressman Chaffetz.
    Can you understand why we would be troubled by your 
previous testimony, Dr. Moure-Eraso? I just cited four 
instances in which it was factually deficient.
    Mr. Moure-Eraso. If you look at the email that you are 
referring to----
    Mr. Gowdy. I'm looking----
    Mr. Moure-Eraso. It's simply the transmission of an article 
that appeared in the press.
    Mr. Gowdy. Dr. Moure-Eraso, I am looking at your prior 
testimony. That's what I find vexing and alarming is your prior 
testimony to the chairman of this committee.
    Mr. Moure-Eraso. Well, I accept it. I made mistake probably 
in address, and rather than using the CSB mail, by a mistake, I 
sent it a Gmail with a copy of an article that appeared in a 
newspaper.
    Mr. Gowdy. Well, I agree you made a mistake, but my main 
concern is that you made a mistake when you were testifying 
before this committee.
    And with that, I would yield back to the chairman.
    Chairman Chaffetz. The gentleman yields back.
    I now recognize the gentleman from California, Mr. Lieu, 
for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    I'd like to discuss the motion that was approved at the 
January 28 public meeting convened by the CSB in Richmond, 
California. Eighteen of the agency's orders relating to 
personnel, contracting, budgeting, and general administration 
of the Board were rescinded, including Board Order 28. Mr. 
Chairman, is that correct?
    Mr. Moure-Eraso. Yes, it is.
    Mr. Lieu. OK. The motion eliminated the Board approval 
regarding the hiring of senior staff, selection of members of 
the Senior Executive Service, and spending above $50,000. Mr. 
Griffon, Mr. Engler, is that your understanding as well?
    Mr. Griffon. Yes, that is.
    Mr. Lieu. All right. So I'm going to read to you a quote in 
the National Journal article by William Wright, a former Board 
member, who Stated, It looks like a takeover of the agency. 
Early on, the agency had some really rough roads because we 
were fighting over authority, but we tried to balance that. 
You're basically now handing it over to one person.
    Mr. Griffon, Mr. Engler, would you agree with that 
statement?
    Mr. Griffon. Yes, I would agree with that statement.
    Mr. Engler. Yes, I would.
    Mr. Lieu. And you agree this is essentially a power grab by 
the Chairman, correct?
    Mr. Griffon. Yes. Yes, I agree it's to restore power--or 
put power in the Chair and take it away from the overall Board, 
yes.
    Mr. Engler. Yes.
    Mr. Lieu. OK.
    And, in 2000, the Department of Justice Office of Legal 
Counsel opinion agrees with you, and it States, ``The day-to-
day administration of Board matters and execution of Board 
policies are the responsibilities of the Chairperson subject to 
Board oversight.''
    In addition, the Carden Group, a consulting firm hired by 
CSB to help agency address internal challenges also believed 
that Board oversight or governance was critically important. A 
report from that firm said, Restoring Board governance to 
ensure functionality to the Board is ultimately--and ultimately 
at CSB is mandatory.
    Mr. Griffon, Mr. Engler, do you agree with both of those 
statements?
    Mr. Griffon. Yes, absolutely. I think this--the motion 
removed many important checks and balances, and I absolutely 
agree.
    Mr. Engler. I agree as well.
    Mr. Lieu. Dr. Moure, you asked earlier--at the beginning of 
this hearing, you opened up by saying, I will start by frankly 
acknowledging that a number of members of this committee have 
been critical of my Chairmanship of the CSB. I was humbled by 
the message that I heard loud and clear during your hearing 8 
months ago in June.
    I don't believe you. A person who has been humbled would 
not, about a month and a half ago, have consolidated power on 
the Board. When someone's embattled, when someone has shown 
dysfunctional leadership, they don't consolidate power. That is 
what dictators do. It's not what public officials in America 
do.
    Mr. Lieu. I do not understand why you would look at taking 
that action when none of the recommendations of Congressman 
Waxman or of this committee anywhere would say, hey, we've got 
a dysfunctional CSB, we've got a chairman that has violated 
laws and regulations, and the solution to that is for the 
chairman to consolidate power. That makes absolutely no sense.
    Mr. Moure-Eraso. If I may----
    Mr. Lieu. No. I will ask you a question, and then you can 
answer.
    Mr. Moure-Eraso. OK. Well, do you want----
    Mr. Lieu. Are you aware that on February 18 there was an 
explosion at the Torrance ExxonMobil refinery in my district? 
That's a question to you, Mr. Chairman.
    Mr. Moure-Eraso. Oh, that's the question, yes. Yes, I was I 
aware of that explosion, yes.
    Mr. Lieu. And what are you all doing about it?
    Mr. Moure-Eraso. We--as we normally do when there are 
serious chemical explosions, we convened what we call a 
deployment meeting, in which we collect information about the 
particular incident. We poll the senior department directors on 
the information that we have. We use an algorithm to put a 
number that will define the seriousness of the consequence of 
the accident. And based on all those inputs, we make a decision 
if we are able to deploy or not to a particular accident.
    And we went through all that process in Torrance.
    Mr. Lieu. And what's a timeline for that?
    Mr. Moure-Eraso. The timeline is within 24 hours of the 
accident.
    Mr. Lieu. And then have you shared what your conclusions 
were after 24 hours?
    Mr. Moure-Eraso. The conclusions of the deployment meeting 
was that, even though that was an important and serious 
accidents, that we didn't have the resources to deploy, and we 
didn't deploy.
    Mr. Lieu. OK. I will followup with the CSB on that issue.
    And then let me close by saying that, again, I am deeply 
troubled not only by your desire to consolidate power at the 
Board but also by the method in which you chose to do so, by 
intentionally ramming this through even though you had another 
Board member coming up who could have voted on this.
    Mr. Moure-Eraso. Mr. Congressman----
    Mr. Lieu. I yield back.
    Mr. Moure-Eraso. Mr. Congressman, if I might--if I may, 
these changes that happened in January the 28th were not for 
me. I have a few weeks left. They were put on the Board after 4 
1/2 years of discussion of what is the way that governance will 
work on the Board. And they were put in place and voted in 
there by the new Board member--were proposed by a new Board 
member and supported by me to establish clear lines of 
authority and to put the way that the agency functioned to make 
it compatible with Federal law.
    We cannot have Board orders that are incompatible with 
Federal law. The objective is to put them in line with the 
National Transportation Safety Board--that we did--and to have 
a system that is--a system that is--that follows a model--that 
is, the National Transportation Safety Board--and that will 
work for the future. This is for the future.
    If there is any idea from other Board members that this is 
not acceptable or it is not useful, of course they have the 
opportunity to propose a motion and to try to change it 
whenever they want. They have 5 years to do it.
    Chairman Chaffetz. Mr. Lieu, go ahead. I recognize you for 
additional time if you so need it.
    Mr. Lieu. I think my point has been made. Thank you.
    Chairman Chaffetz. I'd like to interject here and ask a 
question as to why, then, didn't you publish this in advance of 
the meeting?
    Mr. Moure-Eraso. I have been discussing the government 
issue with Mr. Griffon for 4 1/2 years. As a matter of fact, 
for a year, we discussed what should be the Board's roles and 
responsibilities. And----
    Chairman Chaffetz. OK. Let's get----
    Mr. Moure-Eraso [continuing]. We're proposing a Board order 
that we agree on, that we're going to vote on, and then he 
voted ``no'' on it. And this discussion continued for a year.
    Chairman Chaffetz. Let's get Mr. Griffon's opinion of this 
perspective.
    Mr. Griffon?
    Mr. Griffon. Yes, thank you, Chairman.
    It is true, we've talked about the exchanges for quite some 
time, and we grappled with the changes to Board Order 28 and 
additional Board orders on roles and responsibilities. And, at 
the end of the day, changes were not acceptable to me, and Mr. 
Bresland asked for calendaring the motion. Later, when Dr. 
Rosenberg was on the Board, it was the same situation.
    So we did grapple with those changes, but instead of voting 
and trying to fix them through a vote, they continued to work 
around and circumvent the Board orders, leading up to this 
final surprise vote in California.
    Chairman Chaffetz. When you say ``surprise,'' what do you 
mean, ``surprise?''
    Mr. Griffon. I mean ``surprise'' in that, the night of the 
vote, I listened to the motion be read into the--at the end of 
a Chevron report, Mr. Ehrlich was recognized to make a motion. 
He read a summary of the motion. Subsequent to that, they 
handed me a 22-page package. It was the first time I saw that.
    Chairman Chaffetz. We'll now recognize the gentlewoman, 
unless Mr. Lieu--unless you--or Mr.----
    Mr. Cummings. Mr. Chairman?
    Chairman Chaffetz [continuing]. Cummings?
    Mr. Cummings. Mr. Engler, what do you want to say?
    Mr. Engler. Thank you.
    I think the issue of governance is a major central issue to 
the future of the Board. It's the bedrock upon which decisions 
are made. It will determine the nature of the recommendations. 
It can affect, certainly, key staffing.
    And what I would like to see, moving forward, in addition 
to retraction of the in-the-night action in Richmond, is a look 
at can the Board policies and procedures be done by regulation.
    The CSB is not a regulatory agency, but it does have the 
ability to issue regulations to govern its own conduct. And I 
would suggest--and I have to say that I have to consult with 
more people about whether this is really a good idea--that if 
it was done by a regulation, there would be an opportunity for 
advance notice, there would be an opportunity for public 
comment, there could be an opportunity for a public hearing of 
industry, labor, environment, academic stakeholders.
    And so the outcome of such could be that we have rules that 
last beyond one particular chair, whether they are nominated by 
a President from one party or another, that would have lasting 
value. And I think that would help the credibility of the Board 
and stabilize the Board moving forward.
    Chairman Chaffetz. Thank you.
    Now recognize the gentlewoman from Wyoming, Ms. Lummis, for 
5 minutes.
    Mr. Ehrlich. Mr. Chairman, may I say a few words?
    Chairman Chaffetz. No. We're going to recognize the 
gentlewoman from Wyoming now.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I want to followup on Mr. Lieu's line of questioning.
    Mr. Ehrlich, why did you put forth, as part of that late-
night motion in California, why did you move to close out 
pending investigations at Silver Eagle and CITGO and Horsehead?
    Mr. Ehrlich. Based on the information that I was given, we 
had done just about all we could do there. If----
    Mrs. Lummis. Who provided you----
    Mr. Ehrlich. Well, I'd----
    Mrs. Lummis [continuing]. With that information?
    Mr. Ehrlich [continuing]. Talked with the staff.
    Mrs. Lummis. So the staff told you, ``We're done''?
    Mr. Ehrlich. Well, they had put out several reports. One of 
the--one of the instances had to do with technology that no one 
in the United States even used anymore.
    Mrs. Lummis. So why a late-night motion that wrapped a 
whole bunch of Board procedures, chairman duties in with this?
    Mr. Ehrlich. For the same reason I made the motion 
concerning the Board orders. This was tagged onto it. My 
primary objective was to clean the slate so that, when Mr. 
Engler and myself remain after June, we have a clean slate to 
deal with. We can go back and put any Board order or rewrite 
any Board order.
    And, in fact, of the 18 Board orders that were rescinded, 3 
of them hadn't been used in years, 10 of them were inaccurate, 
3 of them were obsolete, and 1 of them conflicted with the 
GSA's travel policy. We are in the process of putting four 
Board orders in place at this time to correct some of those 
deficiencies.
    There is nothing to say that we can't go back and put in 
place the correct Board orders. We can look at issues around 
those three particular accidents that had been closed out. But, 
at that point in time, we had spent a lot of data on it--a lot 
of time on it. And most of the people who were involved were 
not involved in--were not available anymore----
    Mrs. Lummis. OK.
    Mr. Moure-Eraso, did you agree with this, this closing out 
the pending investigations?
    Mr. Moure-Eraso. Yes, I did. We----
    Mrs. Lummis. OK.
    So, Mr. Griffon----
    Mr. Moure-Eraso. We have----
    Mrs. Lummis [continuing]. Did you agree?
    Mr. Moure-Eraso. If I can explain to you----
    Mrs. Lummis. I'm sorry. You just said yes. I got my answer.
    Mr. Moure-Eraso. Yes. You know we have----
    Mrs. Lummis. Mr. Griffon, did you agree with closing out 
those investigations?
    Mr. Griffon. No, I didn't agree. And, in fact, we had an 
action plan submitted to the Board, a draft action plan, in 
November that had actually incorporated all three of these as 
being part of our actions going forward.
    Mrs. Lummis. So what are the implications of closing these 
out without the effort to go forward?
    Mr. Griffon. Well, I think the implications are that what 
we've issued so far are just--one of them is a metallurgical 
report and the others were urgent recommendations, which I 
supported, for CITGO, but it doesn't allow--it didn't allow for 
the full assessment that our kind of investigations would do to 
look at the higher-level causes of an incident.
    And that's what the stakeholders are interested in. They 
don't want to know just why the metal failed; they want to know 
what caused it to get in that State in the first place.
    Mrs. Lummis. So do you believe these investigations were 
closed because investigators have left the agency? Or did that 
have nothing to do with it?
    Mr. Griffon. I believe that these were old investigations, 
and some of the investigators did leave the agency, yes. But 
there was a lot of work that went into these, I think overall 
800-and-some-thousand dollars put into these three 
investigations, so I was at least interested in hearing more 
about what could be done with these cases with our current 
investigative team. They can certainly pick up the evidence 
that's there and work with it.
    Mrs. Lummis. And do you think that that evidence might have 
a bearing on public safety, they might inform or instruct 
public safety in the future?
    Mr. Griffon. Oh, absolutely. And I think, you know, that's 
why we do this work. It's not simply to know why the piece of 
metal failed. The stakeholders want to know more, and that's 
what we can provide.
    And for the two investigations, even the fact that some 
investigative staff had left, CITGO and Silver Eagle, they were 
put into the action plan as part of an overall refinery study. 
And I thought that could be a reasonable option since we maybe 
can't do full reports on those investigation. We don't want to 
lose those issues; they are very important. After this meeting, 
the action plan was updated to eliminate the refinery study and 
those investigations.
    Mrs. Lummis. Mr. Engler, any idea why this--why eliminate 
this?
    Mr. Engler. I'm not precisely sure. In fact, I wanted to 
have a meeting tomorrow afternoon, because one of the problems 
of being a new Board member in this environment is complete 
confusion----
    Mrs. Lummis. Yes.
    Mr. Engler [continuing]. About what decisions have been 
made, the difference between an investigation--an investigation 
that morphs into a study that changes into an industry-wide 
study that might be related to a conference. I mean, figuring 
out what clear decisions have been made is a moving target.
    Mrs. Lummis. Yes. I think----
    Mr. Engler. And that's been one of my challenges as a new 
Board member, and I'm finding it, frankly, very difficult.
    Mrs. Lummis. Yes. We share your frustration.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. Thank the gentlewoman.
    We'll now recognize the gentleman from California, Mr. 
DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And I want to 
thank you for this hearing, and the ranking member. And I 
particularly want to thank you for the title of the hearing, 
``Rebuilding the Chemical Safety Board,'' because I think the 
Board is important.
    To the Chairman, I take extreme exception to your comments 
in your opening remarks, having been a State and regional 
regulator in California, that you would suggest that 
California, because of your actions, are adding to regulations.
    And, as you know in our conversation, I tend to agree with 
you that we should look at adopting a safety-first culture that 
they have in Europe. And when I was in the legislature, because 
of a hearing in Chevron, which is in any district, in Richmond, 
I looked at that, but because of the dysfunction of this 
agency, it was recommended to me that I withhold that 
legislation.
    So I had staff members in the meeting in Richmond City Hall 
that you all talk about. In the last 24 hours, I've had 
continued conversations with State and regional local 
regulators who were there, who used words to describe the 
events after you had the recess as ``incredulous'' and 
``embarrassing,'' as the actions of the Board, and that the 
motion was ``inaudible.''
    So, Mr. Griffon and Mr. Engler, this action was taken, was 
it not, because Mr. Engler had been confirmed by the Senate and 
was due to join the Board so that the majority, in this 
instance, would not have been able to pass the motion once Mr. 
Engler joined the Board at a subsequent meeting? Is that not 
why it happened, in your view?
    Mr. Griffon. In my view, it would seem to be the case, yes. 
And I made a motion to table based in part on that fact.
    Mr. DeSaulnier. So I just want to read for you a quote 
that's been publicly put out by a former Board member during 
both the Clinton and George W. Bush Administrations in this 
regard. ``The action seemed to stick its finger in the eye of 
the Senate.''
    Would you agree with that, Mr. Engler, given that you were 
already confirmed and because of personal reasons you couldn't 
join the Board for the meeting in Richmond?
    Mr. Engler. Yes.
    Mr. DeSaulnier. Another quote from a former CSB member in 
regards to your actions by--William Wright is the former CSB 
member. ``They basically''--talking about the majority--
``highjacked the agency,'' said former member William Wright. 
``They did it surreptitiously and with forethought. They didn't 
announce this major, sweeping change in advance of the meeting. 
Then, all of a sudden, 22 pages of changes take place.'' The 
motion canceled unfinished investigations into three major 
investigations.
    And a comment from an employee representative said this 
resulted in ``missed opportunities like this''--in this 
action--``truly putting workers and the public at risk.
    Would you agree with those quotes, Mr. Engler and Mr. 
Griffon?
    Mr. Griffon. Yes.
    Mr. Engler. Yes.
    Mr. DeSaulnier. Mr. Chairman and Mr. Ehrlich, when we had 
our conversation yesterday, I said I would be amongst your 
staunchest supporters when you're right, but when you're wrong, 
as somebody who believes in this and has been, as I said, a 
regulator--and Mr. Lieu and I have within our districts the 
preponderance of the capacity for refining in the State of 
California.
    In my county, we have the highest concentration of chemical 
and refinery facilities and hazardous materials in the State of 
California. It's in, I believe, the fourth-largest metropolitan 
area surrounded by urbanized areas. I, for one, want those 
facilities to work and work successfully. They are continuously 
amongst the 10 largest taxpayers. Their multipliers are huge. 
I've had somewhat of a love-hate relationship with the 
regulated community, but they respect me and I respect them, 
and I don't want them to leave.
    Effective enforcement is very important. We're proud of 
what we do in the bay area. I can't say that I'm proud of what 
this Board does. It's very clear, sitting here, that this is a 
dysfunctional agency. Usually, you have to scratch around a 
little bit to find arrogance and incompetence, but, in this 
instance, it's right out in the daylight.
    And I apologize if that appears harsh, but what good would 
it do the agency or the public--and, Mr. Ehrlich, your comments 
about going to funerals, those are heartfelt. As you know, I 
have had to attend funerals of constituents, one of who was 
eviscerated, four who were burned in a very, very hard, 
emotional incident for the bay area. Both resulted in economic 
downturns for the bay area--not downturns, but they had a 
significant impact because of the importance of the refining 
capacity.
    So I am at a complete loss as to why, when you tell me--and 
you just said you only have a few weeks, but, in effect, you 
have a few months. When I read the Vantage report, which I 
think is terrific--your last, as was said by a colleague--and 
viewed incomparable agencies--and you've actually gone down in 
the last year in terms of confidence of your employees. I look 
at the vote as 80 percent of the people directed at leadership 
as being dysfunctional as a vote of no confidence. Normally, 
when you get an 80 percent vote of no confidence, you leave.
    You can leave with dignity. You've had a long career. It 
would be my personal suggestion, having had a long time in 
regulatory affairs at refineries, and my ask of you personally 
that you resign as soon as possible. I see no possible good for 
you personally, the agency, or the people we serve for you to 
serve one more day.
    So, for me--and, Mr. Chairman, again, I appreciate your 
having this hearing.
    But for the sake of the people we serve in a bipartisan 
fashion, I wish we would begin to rebuild this agency, and the 
only way to do that, with all due respect to the Chairman and 
Mr. Ehrlich, is to get your resignations as soon as possible.
    Thank you, Mr. Chairman. I yield back.
    Mr. Moure-Eraso. May I respond----
    Chairman Chaffetz. Thank you.
    Mr. Moure-Eraso [continuing]. To the Congressman?
    Chairman Chaffetz. No.
    The gentleman's time is now recognized for Mr. Meadows of 
North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman, and I thank you for 
holding this hearing.
    And I must confess, when I saw the topic of the hearing, I 
was a little surprised, Mr. Chairman, that we would be having 
some of these same people come back before Oversight on the 
very same issue. And I don't know if, perhaps, Mr. Chairman, 
that they didn't take the suggestions that you and others had 
made earlier, but I'm really confused as to why we would not 
have addressed those.
    So, Mr. Sullivan, I'm going to come down to you because I 
know your credentials as an investigator are impeccable. And I 
thank you for your work.
    And it's my understanding that you sent a report based on 
the investigation to the White House. Is that correct?
    Mr. Sullivan. Yes, sir. Yes, sir.
    Mr. Meadows. And have you received any response from the 
White House regarding your report on the use of private emails?
    Mr. Sullivan. The White House Counsel has communicated with 
our counsel, saying it was received. And the Counsel's Office 
in the White House forwarded it on to Dr. Moure-Eraso for his 
reply, and we've received Dr. Moure-Eraso's reply.
    We've had no further communication from the White House, 
whether or not disciplinary action is planned.
    Mr. Meadows. But they are engaged with you?
    Mr. Sullivan. Yes, sir.
    Mr. Meadows. OK.
    So, Dr. Eraso, have you had discussions--obviously, you've 
replied. Have you had discussions with the White House 
regarding this report?
    Mr. Moure-Eraso. Yes, I have. I have----
    Mr. Meadows. So have you defended your actions?
    Mr. Moure-Eraso. I have, to tell them that we have 
immediately responded to the IG request and provided them with 
their request and that we have--we are in compliance with the 
rules that were passed in terms of how to use nongovernmental 
mail that were passed by this committee and----
    Mr. Meadows. So you've said that you've complied with this 
committee?
    Mr. Moure-Eraso. Absolutely.
    Mr. Meadows. Well, now, I'm a little troubled with that, 
because the chairman and Mr. Gowdy both have indicated that 
some of your testimony here before us before is not consistent 
with your actions. Would you agree with that statement? That 
you make one statement here before us and do something else. 
Let me make it clear.
    Mr. Moure-Eraso. I agree there is a confusion about some 
dates about when these things happened. But I can tell you that 
all the nongovernmental emails that were produced by me and by 
staff and by two Board members, all those emails have been 
transferred--I mean, for one thing, have been kept in the 
server and are available for----
    Mr. Meadows. So you've given all those to the Inspector 
General's Mr. Sullivan?
    Mr. Moure-Eraso. They----
    Mr. Meadows. Yes or no?
    Mr. Moure-Eraso [continuing]. Are right here. They are 
right here. I informed to them that they have been put on the 
server and they are available.
    Mr. Meadows. I don't care about the server. I care about 
getting them to Mr. Sullivan and this committee. Do I have your 
commitment today that you're willing to give them to Mr. 
Sullivan and this committee, every one of them?
    Mr. Moure-Eraso. Absolutely. They are right here.
    Mr. Meadows. But do you understand that you've violated the 
Federal Records Act, you've violated the law? Do you understand 
that?
    Mr. Moure-Eraso. The law----
    Mr. Meadows. By using your personal email.
    Mr. Moure-Eraso [continuing]. As far as I understand it, 
was passed in November 2014. Immediately, as I was made aware 
of that law, I----
    Mr. Meadows. No, the Federal Records Act is not a 2014 
initiative. You know, being able to keep and use your personal 
email, did you not know that that was illegal?
    Mr. Moure-Eraso. My understanding is that the Federal 
Records Act before 2014 was silent about nongovernmental 
emails.
    Mr. Meadows. Well, is silent about you not losing your job. 
We have a piece of legislation that maybe we have to address 
that.
    So what do we tell the people where you've used your 
personal email to keep control and take advantage of those 
employees that are hardworking employees, some of which the 
ranking member has identified, some of which are reaching out 
to us as whistleblowers? What do we tell those employees?
    Mr. Moure-Eraso. Well, I disagree with your premise that 
the objective of using those emails was to oppress people or 
all the other things that you are saying that had happened. 
The----
    Mr. Meadows. So why would you use personal email versus 
your official one, then, if it wasn't to hide your dialog?
    Mr. Moure-Eraso. First, when I started, as I explained, out 
of ignorance. When I find out that this was obviously not a 
good way of keeping records, I stopped the practice, and I 
start collecting everything that was developed in----
    Mr. Meadows. OK. I'm running out of the time.
    So do I have your commitment that you will give every 
single email, as well as the other emails that were 
personally--to the investigator and to this committee? Do I 
have your commitment today?
    Mr. Moure-Eraso. I already have provided that information. 
Yes. And the information on the other people that use Gmail 
that I here I will provide too.
    Mr. Meadows. I thank the patience of the chair.
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you very much, Mr. Chairman and to the 
ranking member. This is an important hearing.
    I want to go back. I know, Mr. Ehrlich, you talked about 
worker safety. And it's puzzling to me why the Board has 
canceled three investigations that had been pending for more 
than 4 years.
    One of these investigations involved a fire and the release 
of 42,000 pounds of highly toxic hydrofluoric acid at a CITGO 
refinery in Texas. In that instance, one worker was badly 
burned in that accident.
    Another investigation that you canceled involved an 
explosion and a fire at the Horsehead zinc plant in 
Pennsylvania. We had two workers killed there.
    We had a third investigation that involved a flash fire 
caused by a large flammable vapor cloud at the Silver Eagle 
Refinery in Utah. We had four workers who were severely burned. 
And a, sort of, follow-on, second explosion at that facility 
caused by a pipe failure occurred a couple of months later, 
which also damaged about 100 homes.
    So, despite the concern for worker safety and public 
safety, there was a decision to--and, Mr. Ehrlich, in 
introducing a motion before the Board to cancel those 
investigations, you stated, ``There is no realistic opportunity 
to issue a CSB report'' on these tragic incidents.
    Mr. Griffon, you voted against this motion to cancel these 
investigations; is that correct?
    Mr. Griffon. That is correct, sir.
    Mr. Lynch. You know, help me. Help me with this. How can we 
do this?
    Mr. Griffon. Well, I mean, I think--I go back to something 
I've been requesting for 4 1/2 years, which is an overall 
investigations plan and the ability of the Board to make these 
decisions. And, you know, these investigations being canceled 
in the dark of night in California wasn't the appropriate way 
to deliberate on these.
    There were other proposals put forward, as I said, of 
having a larger refinery study, where these investigations 
could've been incorporated into that. I'd be happy to 
deliberate on that and decide that as a Board, not--not in the 
fashion it was done, no.
    Mr. Lynch. Yes.
    Mr. Chairman, I think that this is as bad as I've seen. And 
I just--I appreciate you bringing this forward.
    Let me ask you about--Mr. Griffon, were you there when they 
did this--yes, you were there when we did this hearing and they 
eliminated all these rules. Previously, there was a rule on any 
expenditure over $50,000 required the Board members to approve 
it. But then, with this most recent coup--and it was a coup--
now the chairman has the ability to make expenditures over 
$50,000 without Board approval.
    What's up with that?
    Mr. Griffon. Yes, that's correct. I think that along with 
other important checks and balances were lost when they 
canceled. And I have my binder here of the 18 Board orders.
    Mr. Lynch. Yes.
    Mr. Griffon. You know, no opportunity to study these. I 
think perhaps going through these one by one and making 
revisions, that might be appropriate, but to sweep them all 
away I thought was ridiculous and lost a lot of the important 
checks and balances of the Board oversight over the Chairman's 
administrative and executive function.
    Mr. Lynch. Right.
    And, Mr. Engler, this all happened just as you were--you 
had been approved by the Senate, but you hadn't been able to 
take your seat yet and to deliberate on this. Is that correct?
    Mr. Engler. Yes, that's absolutely correct. I'd worked for 
decades for an organization, and, through my long process of 
consideration for this position, I had a responsibility not to 
walk out on my longtime employer. And so I needed a somewhat--
somewhat of a transition time to complete work there so I could 
fully devote to my duties here. So I was not in a position to 
join the Board.
    I will say, moving forward, I am very concerned about 
hydrofluoric acid, as I know many of the Board leaders and 
staff are. In fact, relating back to the mission of the Board, 
the Oil Insurance Association pointed out in roughly 1974 that 
hydrofluoric acid use in alkylation units in oil refineries 
posed major, major dangers. The Oil Insurance Association was 
then the advisor to the petroleum industry.
    And so this should be taken very, very, very seriously, and 
I intend, moving forward, to revisit this issue. I'm not sure 
what the best way to do it is at this point, but I think that 
this is one of the most important issues that we face as a 
responsible Board, to look at this particular hazard.
    Mr. Lynch. Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from South Carolina, Mr. 
Mulvaney, for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Gentlemen, I was going to talk a little bit about that 
meeting in Richmond, but a couple of the exchanges that just 
took place regarding the emails got my attention. So I'm going 
to ask a variety of questions to a group of you, starting with 
you, Dr. Moure-Eraso.
    You said that it was the Federal Records Act that was 
adopted in November 2014 that prompted you to change your 
practice. Yet, in June 2014, which was before the Federal 
Records Act passed, you said, ``We stopped that practice about 
a year and a half ago because we realized how problematic it 
was.''
    So tell me, if you're relying on the November 2014 changes 
to the law, why did you make your change 18 months before your 
June 2014 testimony?
    Mr. Moure-Eraso. Well, first of all, Mr. Congressman, we 
stopped using the emails, giving the exact date, March 2013.
    Mr. Mulvaney. About 18 months before your June--so, 
clearly, the Federal Records Act changes in November 2014 had 
nothing to do with the change in your practice.
    Mr. Moure-Eraso. I mean, that was what the White House 
requested from us to comply with that----
    Mr. Mulvaney. But, again, your----
    Mr. Moure-Eraso [continuing]. And we complied with that.
    Mr. Mulvaney. But, previously, you told Mr. Meadows that it 
was the Federal Records Act of 2014. That had nothing to do 
with your decision in March 2013, right?
    Mr. Moure-Eraso. No, of course not.
    Mr. Mulvaney. All right.
    Now, then it said that--when Mr. Chaffetz asked you about 
why you did that, you said, ``The Board was telling me that I 
couldn't use my private''--and then there was some talking 
over. I assume you were going to say ``private email 
accounts.'' Is that fair? ``The Board was telling me I couldn't 
use my private email accounts.''
    Why did the Board know it was against the rules but you 
didn't?
    Mr. Moure-Eraso. It was a general practice in the agency 
for people to use Gmails when I arrived.
    Mr. Mulvaney. OK, but that's not what you said. You said, 
``The Board was tell me I couldn't use my''--did Mr. Ehrlich 
tell you you couldn't use your emails?
    Mr. Moure-Eraso. Mr. Ehrlich wasn't there.
    Mr. Mulvaney. OK. Who was on the Board at that time?
    Mr. Moure-Eraso. Mr. Griffon, I believe.
    Mr. Mulvaney. OK. Who told you at that--who on the Board 
told you you could not use your private emails, it was 
problematic?
    Mr. Moure-Eraso. No one really----
    Mr. Mulvaney. And are you testifying, or is it the guy 
behind you in the dark hair?
    Mr. Moure-Eraso. The people that told me that--I mean, it 
wasn't a discussion about if we could use or not use emails. 
It's simply that----
    Mr. Mulvaney. No, it was. It was.
    Mr. Moure-Eraso [continuing]. Naturally, people----
    Mr. Mulvaney. I'm just reading your testimony. ``The Board 
was telling me that I couldn't use my private''--and we assume 
the next word is ``email.'' So I'm asking you, who on the Board 
told you that?
    Mr. Moure-Eraso. I have no recollection of that.
    Mr. Mulvaney. Did you know that it was improper to use your 
private email accounts?
    Mr. Moure-Eraso. At that time, no.
    Mr. Mulvaney. Should you have known?
    Mr. Moure-Eraso. I don't know. Probably I should----
    Mr. Mulvaney. Were there other people on the Board who knew 
it was inappropriate?
    Mr. Moure-Eraso. Well----
    Mr. Mulvaney. And, again, is it the guy behind you who's 
giving you the answers, or are you going to testify?
    Mr. Moure-Eraso. I am testifying.
    Mr. Mulvaney. Would you identify the gentleman in the dark 
hair behind you, please?
    Mr. Moure-Eraso. That gentleman is general counsel of the 
agency.
    Mr. Mulvaney. OK. Is he testifying today? Is he under oath? 
Did he just----
    Mr. Moure-Eraso. I don't know. You are running----
    Mr. Mulvaney [continuing]. Feed you the answer to that 
question I gave you?
    Mr. Moure-Eraso [continuing]. The hearing here.
    Mr. Mulvaney. Did he just tell you the answer to my 
question was ``no''? Is that what he just said to you?
    Mr. Moure-Eraso. I didn't hear, no.
    Mr. Mulvaney. You can't hear him at all?
    Mr. Moure-Eraso. No, I couldn't hear him.
    Mr. Mulvaney. Because we can see him. Everybody up here can 
see him.
    Mr. Moure-Eraso. I am paying attention to you. I----
    Mr. Mulvaney. Let's go back to my question. You just said 
you didn't know it was inappropriate to use your emails in 
March 2013. And I'm asking you, did any members of your Board 
know it was inappropriate or problematic?
    Mr. Moure-Eraso. I don't know.
    Mr. Mulvaney. But then why did you tell Mr. Chaffetz in 
June 2014 that the Board was telling me I couldn't use my 
private emails?
    Mr. Moure-Eraso. I mean, I--I made that statement because, 
as I said, it was a common practice for everybody to use it, so 
my assumption----
    Mr. Mulvaney. Did you make the statement because it was a 
true statement?
    Mr. Moure-Eraso. As far as I can tell, yes.
    Mr. Mulvaney. So I'm asking you again--but the Board didn't 
tell you you couldn't use your private emails. You've already 
said that. You can't remember anybody on the Board telling you 
that. You can't identify anybody who knew it was against the 
rules. The Board didn't tell it was problematic, did they?
    Mr. Moure-Eraso. I don't know one way or the other. I don't 
have any recollection of that on that issue.
    Mr. Mulvaney. All right. Should you have known?
    Mr. Moure-Eraso. Probably, yes.
    Mr. Mulvaney. Was there anybody else at your agency that 
knew? Was there anybody else who knew it was problematic to use 
emails?
    Mr. Moure-Eraso. I don't know.
    Mr. Mulvaney. OK.
    You retire in 15 weeks.
    By the way, Mr. Sullivan, did you ever come across any 
evidence that Dr. Moure-Eraso continued to use his private 
emails after he knew it was problematic or against the law or 
in violation of the Federal Records Act?
    Mr. Sullivan. Yes, Mr. Mulvaney, we did.
    Mr. Mulvaney. OK. Thank you very much. And I wish I had 
more time to explore that.
    Dr. Moure-Eraso, you retire in 15 weeks. Do you believe 
that retiring bureaucrats who break the law should be entitled 
to their full retirement package?
    Mr. Moure-Eraso. I am committed to see--to see the work of 
the Chemical----
    Mr. Mulvaney. OK.
    Mr. Moure-Eraso [continuing]. Safety Board finished----
    Mr. Mulvaney. Do you believe----
    Mr. Moure-Eraso [continuing]. And I believe that the 
reports that we still have on line have to be finished----
    Mr. Mulvaney. I'm not asking you about that. I'm just 
asking you your personal opinion as a 30-year public servant. 
Do you think that public servants who give misleading testimony 
to Congress should be entitled to their full retirement 
package?
    Mr. Moure-Eraso. I don't have an opinion on that.
    Mr. Mulvaney. Do you believe that any lifetime bureaucrat 
who is held in contempt of Congress should be entitled to their 
full retirement package?
    Mr. Moure-Eraso. I don't know which lifetime bureaucrat you 
are referring to. I'm not a lifetime bureaucrat.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Chairman Chaffetz. We'll now recognize the gentlewoman from 
Michigan, Ms. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chairman.
    This line of questioning is concerning to me, the 
responses.
    Last May, former Congressman Henry Waxman recommended that 
the Chairman consult with Board members to establish an 
investigation plan. And it's been stated here today that that 
was a request and a desire of some Board members.
    I think such a plan would allow the CSB to prioritize its 
investigations better, to better control its workload and 
resources to ensure that investigations are completed. And, 
frankly, it gives us accountability.
    Mr. Griffon, has an investigation plan been developed, yes 
or no?
    Mr. Griffon. No.
    Mrs. Lawrence. But it was requested last May. Is that 
correct?
    Mr. Griffon. It was requested last May, and I have 
requested it for several years. It was pointed out by a 2013 
EPA IG report that we should have an investigative plan. So 
it's been pointed out a number of times, yes.
    Mrs. Lawrence. And you also requested a public business 
plan to obtain information on the status of all open 
investigations. Is that right?
    Mr. Griffon. Right. This was along the same lines. We--Dr. 
Rosenberg and myself requested that. We attempted to make a 
motion in a public meeting to have another meeting. We also 
later did a written motion for the same request, to simply have 
a business meeting to hear the status of all open 
investigations and what our path forward was so that the Board 
actually had some input into where these investigations were 
going.
    Mrs. Lawrence. So I understand you made the requests. What 
were the responses?
    Mr. Griffon. They were denied. The last vote was 
calendared, essentially tabled, to be taken up, ironically, at 
another public meeting. But it was--it was a procedural block, 
essentially.
    Mrs. Lawrence. Mr. Chairman, in your testimony, you're not 
even addressing an investigation plan. You talk about the 
backlog. Can you tell me why the request was denied?
    Mr. Moure-Eraso. The request was not denied. I disagree 
with Mr. Griffon. We have published an action plan in which we 
have listed all the open investigations and what were the plans 
to do. This was presented and discussed with all Board members 
at our public----
    Mrs. Lawrence. Mr. Griffon, I asked you that question, and 
the Chairman just stated that there has been a plan submitted. 
What was your response to that?
    Mr. Griffon. There has been no--there is something called 
an action plan--which was never published, by the way--and it 
was modified, as I said, after the last California meeting. But 
it essentially is a list of investigations that they think 
they're going to complete within the year. It's not a--it's not 
a full plan.
    Mrs. Lawrence. You know, it has been----
    Mr. Engler. Could I add----
    Mrs. Lawrence [continuing]. It has been demonstrated today 
that there are--Mr. Engler, did you have a comment?
    Mr. Engler. Just that I've looked at the action plan, and I 
just didn't think it met rigorous standards that included what 
the clear objectives are, what the benchmarks were for 
progress, what were the--any kind of time-specific focus on a 
breakdown of tasks.
    And I think, in fact, this is an area where Mr. Ehrlich and 
I can agree that there needs to be a much more rigorous 
approach to tracking progress on these critical investigations.
    Mrs. Lawrence. Well, I agree with you 100 percent. As a 
matter of fact, I want to state today on the record that this 
is totally unacceptable. When we look at the responsibility and 
the vote of trust that is placed in this agency and we do not 
have an accountable investigation plan, that is totally 
unacceptable.
    Mr. Chairman, you're stating that you have a period of time 
that you will still be the Chairman. What is your commitment 
that an investigative plan--an investigation plan will be 
established, voted on for this Board? What is--give me a 
commitment today. And not an action plan.
    Mr. Moure-Eraso. Congressman, this action plan with the 
elements that Mr. Engler mentioned is in place. We have 
presented to the Board. It has been distributed to the Board. 
It's not simply a list of investigations. It's a prioritized 
list in which we say which ones are going to be finished first, 
second, and third and why, and also establish points in the 
schedule of when different things are going to be finished. 
That is----
    Mrs. Lawrence. Thank you. I think that clearly defines 
where there is a breakdown, and what you perceive as a real, 
accountable investigation plan--and I feel strongly that this 
Board has an obligation to do that.
    And I yield my time, Mr. Chairman.
    Chairman Chaffetz. Thank the gentlewoman.
    We'll now recognize the gentleman from Colorado, Mr. Buck, 
for 5 minutes.
    Mr. Buck. Thank you, Mr. Chairman.
    Mr. Sullivan, what's the purpose, in one sentence or less, 
if you can, for me, what's the purpose of the Federal Records 
Act?
    Mr. Sullivan. It's to ensure that there's transparency and 
accountability, especially if someone files--a citizen files a 
Freedom of Information Act request, that the records will be 
available, and for oversight for Congress and for the inspector 
generals to have access to records.
    Mr. Buck. OK. That's two sentences but still good.
    Tell me who is responsible for that.
    Mr. Sullivan. The agency heads are responsible for ensuring 
compliance.
    Mr. Buck. Why do we have a Records Act?
    Mr. Sullivan. To ensure records are kept in a timely, 
efficient manner.
    Mr. Buck. OK.
    What would happen--how does someone set up a private email 
system on their public computer, on their office computer?
    Mr. Sullivan. Well, in some agencies, private email is 
blocked. I can tell you that from my experience in the Federal 
Government. So you can only use the government email account. 
But in most agencies it's not blocked. You just go to Gmail or 
Yahoo, and you open up your email, and you start sending 
messages. It's fairly simple.
    Mr. Buck. OK.
    My understanding is that there is a policy that was issued 
by the President of the United States that would prohibit 
private emails on government computers, Federal Government 
computers.
    Mr. Sullivan. Well, it's my understanding, sir, to be 
technical, I think it's to prohibit the use of government 
business on private email accounts. I don't think there's a 
Presidential directive that you can't check your personal email 
on a government computer.
    Mr. Buck. OK. So say it--say that again. What is the 
directive?
    Mr. Sullivan. The prohibition is you cannot conduct 
government business using private email accounts.
    Mr. Buck. And if someone used a private email account on 
their government computer, they're sending that email, 
typically, to other people in government.
    Mr. Sullivan. Well, it really depends.
    Mr. Buck. But if they did, would there be any 
responsibility of other people in government to report that 
fact?
    Mr. Sullivan. I think if you're a member of that agency, it 
would be. But if you're sending it to another government 
agency, I don't know. I think it would get a little murky at 
that point.
    Mr. Buck. But you can see clearly on the email account 
where it's coming from.
    Mr. Sullivan. Yes.
    Mr. Buck. You can see that it's not coming from a 
government agency.
    Mr. Sullivan. You can see----
    Mr. Buck. Coming from a Yahoo account or----
    Mr. Sullivan. Right.
    Mr. Buck [continuing]. Coming from some other kind of 
account.
    Mr. Sullivan. Yes, sir. Clearly, it does not say ``.gov,'' 
so you know it's from a private account.
    Mr. Buck. OK.
    So, just hypothetically, if a Secretary of State, for 
example, were using a private email account and sent out emails 
to individuals--other individuals in government, those 
individuals would know that that Cabinet-level official was 
using a private email account.
    Mr. Sullivan. Well, hypothetically, it's obvious from the 
address in the email whether it's a dot-gov or not. Yes, it 
would be fairly--fairly self-evident.
    Mr. Buck. And at least as it pertains to other Cabinet-
level officials, those folks would know that the President had 
issued a directive that would have told others not to use 
private email accounts.
    Mr. Sullivan. Well, I certainly know that in the Inspector 
General's Office, and I would assume most government officials 
know that.
    Mr. Buck. And, certainly, Cabinet-level officials know it.
    Mr. Sullivan. Well, I think that's a safe assumption.
    Mr. Buck. And do people in government get training on what 
is right and what is wrong as it pertains to either ethics or 
the use of private emails and other appropriate uses of----
    Mr. Sullivan. Yes.
    Mr. Buck [continuing]. Resources?
    Mr. Sullivan. It's required training.
    Mr. Buck. OK.
    I yield back. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentlewoman from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I would like to clear up this email business, and I think 
we might be able to do it right here at this hearing. Because 
I've heard Dr. Moure-Eraso keep pointing to the presence of 
emails here, you know, as if he has nothing to hide.
    And I understand, Mr. Sullivan, that you wanted to make 
sure that the Chairman had turned over all of his emails from 
his personal records that reflected government business. Isn't 
that right?
    Mr. Sullivan. Yes, Ms. Norton. That's correct.
    Ms. Norton. Now, I'm asking you, do you have a copy of that 
certification with you today?
    Mr. Sullivan. Yes, ma'am, I do.
    Ms. Norton. I wonder if a staff from the committee would 
provide a copy to our colleagues?
    Mr. Sullivan. Yes. I have two copies here for both yourself 
and for the majority.
    Ms. Norton. I ask that that be done. And while I wait, let 
me continue.
    Let me make clear--let me ask you to make clear what this 
form that is being distributed is. Is this--it says, 
``Statement of Compliance.'' Is this the standard form you use 
during investigations to make sure that you have all the 
records?
    Mr. Sullivan. Yes, ma'am. This is a template, and it's 
been--it's been specified here for the specific case we are 
working on. And you can see, in paragraph 3, we have the 
specific search terms that we're interested in in this 
investigation.
    So it's a template that we use, but it's been--it's been 
kind of drilled down to be specific for the investigation 
involving the Chemical Safety Board and specifically involving 
Mr. Moure-Eraso, Mr. Loeb, and Mr. Horowitz.
    Ms. Norton. And the point is to make sure there are no 
additional records, that you have all the records?
    Mr. Sullivan. Yes, ma'am. We just cannot accept a letter 
saying that we've checked our records. We have to determine 
what the methodology is. Did you use these important search 
terms that we're asking for? Did you have any records with any 
of these individuals' names mentioned that--it's important to 
our investigation. Because we cannot access a personal email 
account unless we have a search warrant. And, this time, the 
U.S. Attorney's office had already declined a criminal 
prosecution, so we had no means to get a search warrant.
    So the only way we could possibly obtain compliance is 
self-compliance, with an affidavit to us stating that they've 
done what we've asked them to do.
    Ms. Norton. Well, now, I'm going to ask Mr. Moure-Eraso to 
listen carefully. I'm going to read the clause that I think 
expresses what Mr. Sullivan has just said.
    ``The materials provided to the OIG are genuine, complete, 
and in full compliance with the request made by the inspector 
general. After receiving the initial request from the OIG for 
the above referenced documents, I took no intentional action to 
destroy, delete, or remove any official CSB email communication 
in my presence. I state that the following is true and 
correct.''
    Now that you have heard this, Chairman Moure-Eraso, do you 
agree, under oath, that you have met the terms of this 
certification?
    Mr. Moure-Eraso. Yes. I affirm that.
    Ms. Norton. So it seems to me the emails now should be 
turned over.
    Thank you very much, Mr. Chairman.
    Chairman Chaffetz. Well, if the gentlewoman would yield, I 
assume you're asking unanimous consent to enter this document 
into the record?
    Ms. Norton. Yes, I am, Mr. Chairman.
    Chairman Chaffetz. Without objection, so ordered.
    Chairman Chaffetz. If I may followup on your questioning, 
because I think you're right, how many times and how long has 
the Chairman had this document?
    Mr. Sullivan. We sent it to his chief counsel August 2014. 
This is after we received some of the records. We wanted to 
ensure--be ensured that it was complete, the records that were 
turned over to us.
    Chairman Chaffetz. So why didn't you sign it?
    Mr. Moure-Eraso. I sent, as I said before, a letter to Mr. 
Elkins expressing that, as I said before, that the CSB Chief 
Information Officer, who are responsible for conducting and 
overseeing the searches they request, and based on his 
assurances and to the best of my knowledge and belief, the 
documents provided to the office of Mr. Elkins satisfy all 
outstanding requests in this matter.
    Chairman Chaffetz. So, to be clear, the inspector general 
asked you to certify this, gave you a document, one page, and 
you elected not to sign it.
    Mr. Moure-Eraso. I sent him a letter certifying that I have 
sent----
    Chairman Chaffetz. No. No, no, no. You didn't sign the 
document that the inspector general asked for, correct?
    Mr. Moure-Eraso. I didn't. I sent the letter----
    Chairman Chaffetz. Thank you. And this is part of the 
ongoing frustration----
    Ms. Norton. Mr. Chairman, can I reclaim my time for a 
moment----
    Mr. Chaffetz. Sure. Sure.
    Ms. Norton [continuing]. And ask, what's the difference you 
see between--now, here's the official government document. Why 
did you prefer your letter when there's an official--you know, 
I could file my own Federal income taxes my own way, too, and I 
prefer to do it that way. But they make me sign this document, 
they make me fill the thing out.
    So why did you feel privileged to certify through mail 
rather than through the kind of official document you must have 
become accustomed to your entire life?
    Mr. Moure-Eraso. The way it was put to me is that I was 
asking to volunteer to sign the--that I--if I volunteered to 
sign this new form that they provided to me. And I felt like I 
have already certified, I have signed, I have given my word, 
and I didn't feel like volunteer to sign this new form--this 
new form that was presented to me.
    Ms. Norton. You had a conscientious objection to signing 
this form?
    Mr. Moure-Eraso. It's just that I already have given a 
certification. I was asking a second certification--volunteered 
to make a second one.
    Ms. Norton. Were you advised by lawyers that you should not 
sign this form but instead send a letter?
    Mr. Moure-Eraso. Yes.
    Ms. Norton. Oh. What lawyers? Were they private lawyers, or 
were they the agency lawyers?
    Mr. Moure-Eraso. My private lawyers said that I shouldn't 
volunteer to sign forms that I wasn't obligated to sign.
    Ms. Norton. Did they give you any reason for this? Did they 
think you might incriminate yourself in some fashion?
    Mr. Moure-Eraso. It was thought that it was volunteer, so I 
said, look, the issue is certification or send the materials. I 
have given a certification in the form of a letter. I have sent 
the material. I have given my word that I sent the material. I 
have my chief information officers doing the searches, getting 
the information, and transferring. I--I followed the advice.
    Ms. Norton. So you're a Federal official, but you do not 
feel that you have to abide by the same laws requiring 
documents as other Federal officials.
    Mr. Moure-Eraso. Well----
    Ms. Norton. That's the long and short of it, isn't it? I 
mean, other Federal----
    Mr. Moure-Eraso. I wasn't very clear if I was required to 
sign the certification. I have a letter in which I certified--
--
    Ms. Norton. Well, did you ask for clarification from Mr. 
Sullivan?
    Mr. Moure-Eraso. Well, I thought that my letter speak for 
myself for giving a certification of----
    Ms. Norton. So you didn't ask for certification from Mr. 
Sullivan.
    Mr. Moure-Eraso. I didn't.
    Chairman Chaffetz. Go ahead.
    Mr. Cummings. Just one question.
    Why didn't you sign the document, man? I mean, it just 
seems like it's such a simple thing. You're familiar with the 
document. You agree with every word of it; is that right?
    Mr. Moure-Eraso. Well, I--I have--I asked for legal advice 
on this. This is a pretty serious matter.
    Mr. Cummings. Yes, it's a very serious----
    Mr. Moure-Eraso. And I showed--yes--I showed them this 
document and said, well, you know, they are asking me--they 
have developed this document, they want me to volunteer to 
sign. And I said, well, I already certified this, I already 
signed the letter saying I submitted what they want. So he 
said, well, my advice is you don't volunteer to sign a document 
that you don't have to.
    Mr. Cummings. And the letter said everything that's in this 
document. The letter that you did sign.
    Mr. Moure-Eraso. As far as I'm concerned, yes.
    Ms. Norton. Mr. Chairman, could I ask if----
    Mr. Cummings. Do we have that----
    Ms. Norton [continuing]. The advice was from the lawyer 
who's with him today?
    Mr. Moure-Eraso. No.
    Mr. Cummings. No. That's his private lawyer.
    Do you have the document--do you have the letter?
    Mr. Moure-Eraso. Yes. I have it here.
    Mr. Cummings. Oh, good. May I--can we get a copy of that?
    Chairman Chaffetz. If the clerk can get this, make 
duplicates for everybody on the Board. And we ask unanimous 
consent to enter it into the record.
    Without objection, so ordered.
    Mr. Moure-Eraso. I have two copies, as a matter of fact, so 
I'll give you one.
    Chairman Chaffetz. The clerk will take that. It will take a 
few minutes to duplicate it.
    We'll now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Dr. Moure-Eraso, you said earlier that you are a first-
generation American; is that correct?
    Mr. Moure-Eraso. I'm sorry?
    Mr. Walker. You said earlier that you are a first-
generation American----
    Mr. Moure-Eraso. Yes.
    Mr. Walker [continuing]. In your opening statement?
    Do you remember the last line of the oath that you took, by 
chance, the last sentence of the oath?
    Mr. Moure-Eraso. I don't remember now.
    Mr. Walker. Let me read it for you. It says, ``I will 
perform work of national importance under civilian direction 
when required by the law and that I take this obligation freely 
without any mental reservation or purpose of evasion, so help 
me God.''
    Now, interesting enough, I believe in about 15 weeks, when 
you're talking of retiring, is going to be your 30th 
anniversary of being this first-generation American. And I have 
a question for you.
    It seems to me from what I'm hearing that you're just 
trying to survive another 15 weeks. Is that fair?
    Mr. Moure-Eraso. I have work to do.
    Mr. Walker. OK. Well, let me ask you a little bit about 
that work that you're doing.
    Go back to one individual, and I'm going to list seven 
things, and you tell me if any of these that you disagree are 
correct--or feel are incorrect.
    No. 1, Dr. Rosenberg said, ``The criticism was never 
accepted.'' Agree or disagree?
    Mr. Moure-Eraso. Disagree.
    Mr. Walker. And that the government inside your leadership 
was ineffective. Agree or disagree?
    Mr. Moure-Eraso. Disagree.
    Mr. Walker. Said there was a lack of accountability. Agree 
or disagree?
    Mr. Moure-Eraso. Disagree.
    Mr. Walker. Said there was no priorities for reducing the 
backlog of investigations. Agree or disagree?
    Mr. Moure-Eraso. Disagree.
    Mr. Walker. She also said choreographed production when you 
had a press conference. Do you understand that, what she was 
saying there?
    Mr. Moure-Eraso. I disagree.
    Mr. Walker. Disagree?
    And that she would literally have to have meetings--for 
concerns were being intimidated--she would actually have to 
have meetings in ladies' rooms. Agree or disagree?
    Mr. Moure-Eraso. I don't visit ladies' washrooms. So I 
disagree. I don't know one way or the other.
    Mr. Walker. OK.
    Well, let me just expand the scope out from Dr. Rosenberg a 
little bit. Multiple individuals inside this agency have 
portrayed it as a toxic work environment. What do you have to 
say about that?
    Mr. Moure-Eraso. I disagree. As a matter of fact, what we 
have to see is what is the product of the agency, what we 
accomplish, what we produce. I pointed out, in the last 8 
months, we have to produced eight world-class reports on 
safety. And that is our core mission, that's what we do, and 
that's what we do right.
    Mr. Walker. Do you----
    Mr. Moure-Eraso. A place that has a toxic work environment 
probably cannot produce world-class----
    Mr. Walker. In two or three sentences, how would you 
describe--give me a brief description of your job. What are 
primarily, in two or three sentences, your function?
    Mr. Moure-Eraso. The function of the job is to make--to 
organize an agency that will be able to investigate major 
chemical accidents and provide recommendations for preventing 
them from happening.
    Mr. Walker. Uh-huh.
    Mr. Moure-Eraso. That has been happening, and that we are 
providing to the American public.
    Mr. Walker. On a scale of 1 to 10, how would you rate 
yourself in accomplishing that?
    Mr. Moure-Eraso. I would say about an eight.
    Mr. Walker. About an eight.
    Mr. Moure-Eraso. Uh-huh.
    Mr. Walker. Well, I will tell you here, I've been here 8 
weeks, and this is the first committee hearing that I've 
participated in where there is a bipartisan approach that 
really drills down to the inefficiency of this particular 
agency, and it has been under your leadership. How do you 
account for that?
    Mr. Moure-Eraso. Well, I don't know how you define 
``inefficiency.'' We have produced 22 major reports in 5 years, 
and in the last 8 months we have produced eight reports, major 
reports, that include, each one, a video that appear on our 
Website. We have 400,000 hits on our Website for our work. I 
don't think----
    Mr. Walker. In other words, you are basically telling this 
committee that your agency has run at premium efficiency level.
    Mr. Moure-Eraso. Not premium, but, you know, it has 
delivered what it was designed to do.
    Mr. Walker. What would you have liked to have done better? 
What do you feel like the mistakes were made?
    Mr. Moure-Eraso. I would like to have--to have more 
resources in order to be able to cover more of these chemical 
accidents.
    Mr. Walker. So this was resources or the inefficiencies, 
they were because you didn't have enough resources.
    Mr. Moure-Eraso. We didn't have enough resources to do the 
work that we were--were given to us, yes.
    Mr. Walker. OK. With that, I yield back.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the gentleman from Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome back, 
Mr. Moure-Eraso.
    Mr. Engler, you have called for the rescission of the Board 
decision of January 28. Is that correct?
    Mr. Engler. Yes.
    Mr. Connolly. And why do you think it should be rescinded?
    Mr. Engler. Because I think it was not considered in an 
open and fair way, and I don't mean--it's not a personal matter 
that no one called me up prior to a formal appointment by the 
President and asked me what I thought. It seems to me when you 
change major procedures, policies, that there is an obligation 
as a public entity to interact with the public, to not--and 
frankly, I'm--I'm quite familiar with the--some of the New 
Jersey laws we have on this. I need a briefing. One of the 
things I wasn't briefed on, on the Sunshine Act. I don't know 
whether there was a technical violation or a--just a violation 
of the intent of that, but major change by agencies needs to be 
done with public notice, the opportunity for public comment, 
public hearings, and it has to be an ongoing process, and I 
endorse a call of Member Griffon.
    Mr. Connolly. Would you----
    Mr. Engler [continuing]. For public meetings.
    Mr. Connolly. Thank you. Would you say that the decision to 
rescind made on January 28 was a pretty profound decision?
    Mr. Engler. Yes.
    Mr. Connolly. Because?
    Mr. Engler. Because it seemed to upend a whole series of 
Board policies, including on budget. So, before I arrived on 
the scene, to look carefully at budgets because, frankly, I 
feel like I'm accountable to the public for how the agency 
spends its money. I then find out that, no, I'm not.
    Mr. Connolly. OK. Thank you so much.
    Mr. Chairman, Mr. Chairman of the CSB, you voted to 
rescind, on that date, 18 Board orders. Is that correct?
    Mr. Moure-Eraso. Yes, that's correct.
    Mr. Connolly. And one of those Board orders was Board Order 
23, which established policies and procedures for hiring and 
selecting career appointments to the SES, the Senior Executive 
Service. Is that correct?
    Mr. Moure-Eraso. That is correct.
    Mr. Connolly. And also, that order also established the 
Executive Resources Board within your agency that--and that 
board conducts the hiring process and makes recommendations of 
best qualified candidates to the Board. Is that correct?
    Mr. Moure-Eraso. The old Board order, yes, it has something 
like that in the old Board order, yes.
    Mr. Connolly. Uh-huh. Why did you decide to vote to 
essentially eliminate the Executive Resources Board?
    Mr. Moure-Eraso. Because the--that order is in conflict 
with the Office of Personnel Management procedures for the 
choosing of SES. Under the procedures of the Office of 
Personnel Management, the appointment authority for SES in a 
Federal agency is the head of the agency.
    Mr. Connolly. Well, what----
    Mr. Moure-Eraso. In this particular--in the old order that 
you are referring to, they say that the appointment authority 
was on the Board. It has to be a vote to accept an SES.
    Mr. Connolly. Mr. Sullivan----
    Mr. Moure-Eraso. That the evaluation of the person has to 
be also doing by the whole Board arrive on the one person.
    Mr. Connolly. OK. Hold that thought.
    Mr. Sullivan, I was under the impression OPM regulations 
actually require having an Executive Resources Board. Is that 
not correct?
    Mr. Sullivan. I am not--I don't know, sir. Sorry.
    Mr. Moure-Eraso. May I make----
    Mr. Connolly. I've got the regulation right here: 3393, 
career appointments, subsection B, each agency shall establish 
one or more Executive Resources Boards, et cetera, et cetera.
    So that seems to contradict exactly what you just said, Dr. 
Moure-Eraso.
    Mr. Moure-Eraso. Yes, we do have an Executive Resources 
Board, as a matter of fact. We have established one for SES as 
hiring. That is part--you are correct, that is part of the OPM 
regulations.
    Mr. Connolly. But you just said in answer to my question 
that in rescinding Board Order 23, the Executive Resources 
Board went away. Would that----
    Mr. Moure-Eraso. No, no. I misspoke. There was an 
additional board, internal board that was created for Board 
Order 23, and that is what it was, not on the Office of 
Personnel Management. There is an additional board created 
internally.
    Mr. Connolly. An additional board.
    Mr. Moure-Eraso. Yes.
    Mr. Connolly. Is it also not true that the CSB recently 
entered into a contract with a private company to handle the 
agency's recruiting and hiring of senior executives?
    Mr. Moure-Eraso. Yes.
    Mr. Connolly. Was that contract awarded to a long-time 
friend and associate of your general counsel, Mr. Loeb?
    Mr. Moure-Eraso. We have--we're authorized to have three 
SESes, and at the time we only have one, so I thought it was 
important to initiate the process to recruit another SES 
member. And so, since this issue is so delicate and there has 
to be beyond any reproach, the process, I did hire a consultant 
with extensive experience on SES, that was a former SES, to 
conduct the search to choose an Executive Resource Board that 
is already chosen and to start--to start the process of--open a 
search for an SES that has been initiated.
    Mr. Connolly. Thank you. Mr. Chairman, my time is up, but I 
do want the say I think there are so many issues here, One does 
not know where to begin. I am deeply troubled at what is--looks 
like the politicization of the hiring process and cronyism and, 
frankly, a very cloudy, if not illegal, meeting that took place 
on January 28 with, as Mr. Engler said, profound implications 
in the management of this agency. And it ought to concern all 
of us.
    With that, I yield back.
    Chairman Chaffetz. Great. Thank you.
    I'm actually now going to recognize myself. I have not 
taken my 5 minutes.
    Mr. Moure-Eraso, I want to play a clip of a hearing from 
last time.
    [video shown.]
    Chairman Chaffetz. So that would have put the date back in 
January 13. Did you use your personal email after January 13--
or January 2013, I should say?
    Mr. Moure-Eraso. Mr. Chairman, I have to look at my----
    Chairman Chaffetz. It's a yes or no. It's a yes----
    Mr. Moure-Eraso. I have to look at my records. I don't 
know.
    Chairman Chaffetz. When is the most recent time that you 
used your personal email?
    Mr. Moure-Eraso. I have to look at----
    Chairman Chaffetz. For work?
    Mr. Moure-Eraso [continuing]. My records. I cannot answer 
you.
    Chairman Chaffetz. You can't tell us that you just haven't?
    Mr. Moure-Eraso. I have to look at my records.
    Chairman Chaffetz. Let me ask the inspector general. What's 
the most recent time you've seen him using his personal email 
for work-related business?
    Mr. Sullivan. August 2013.
    Chairman Chaffetz. There is some information that suggests 
you may have emails as late as 2014. Would that be accurate or 
inaccurate, Mr.----
    Mr. Moure-Eraso. I assume that Mr. Sullivan has probably a 
document that says so.
    Chairman Chaffetz. So you did use your email even though 
you testified to us. You testified. And then, even after that, 
you used it, your personal email.
    Mr. Moure-Eraso. I said that--I didn't give you a date. I 
can't--I couldn't give you an exact date of when this is done.
    Chairman Chaffetz. The--you said the CIO, chief information 
officer, had gone through this. Did you give the chief 
information officer your password to your personal Gmail 
account?
    Mr. Moure-Eraso. Yes.
    Chairman Chaffetz. And did you let the CIO go through all 
of your personal emails on your Gmail account?
    Mr. Moure-Eraso. Yes.
    Chairman Chaffetz. Did that also happen for Managing 
Director Daniel Horowitz and General Counsel Richard Loeb?
    Mr. Moure-Eraso. You have to ask them.
    Chairman Chaffetz. Well, you sent letter. You just handed 
us this letter.
    Mr. Moure-Eraso. Yes.
    Chairman Chaffetz. So, tell me, what--I'm trying to read 
through it real quick. You just gave it to us. So what's your 
hesitation in signing this document that's given to you by the 
inspector general? I still don't understand that.
    Mr. Moure-Eraso. My lawyer told me that I shouldn't 
volunteer when I don't have to. So I am not volunteer.
    Chairman Chaffetz. Your document here, July 15, 2014, says, 
These documents were produced based on a search of both CSB and 
personal email accounts of the individuals from whom the 
documents were requested, and the document request was above 
and beyond you.
    Mr. Moure-Eraso. So what is the question?
    Chairman Chaffetz. Did they or did they not have the CIO 
check their personal emails, Mr. Horowitz and Mr.----
    Mr. Moure-Eraso. As far as I know, yes. My knowledge is 
that----
    Chairman Chaffetz. This is--this is the pattern with you. 
Is once you're presented with facts, then you just change your 
story, but you don't give us candid testimony the moment that 
you're asked.
    Let me go back to something. I don't want you----
    Mr. Moure-Eraso. If I don't know something, I cannot tell 
you yes or no.
    Chairman Chaffetz. Let me go to something specific. I want 
to warn you with the sternest words I can possibly do. This is 
whistleblower information. You're going to be able to figure 
out who this person is, unfortunately, but I don't want this 
person's name used in this public format. Do you understand?
    Mr. Moure-Eraso. Uh-huh.
    Chairman Chaffetz. Let me ask you about this Vantage 
report. The Vantage report was produced on--to the Board, or 
to--to you--let me get the exact date--February 11 of 2015. 
That presentation was from 3:30 to 4:30 that afternoon. There 
was a person who was the person of record interacting with 
Vantage. When was that switch made to change the person of 
record interacting with at Vantage?
    Mr. Moure-Eraso. I understand within 24 hours or 48 hours.
    Chairman Chaffetz. Eight minutes, 8 minutes. So you get a 
very--you get the Vantage report, which is not very flattering. 
I mean, several members have gone up through this, and 8 
minutes after you get bad news, you move, you change this 
employee away from being the contact of record.
    Mr. Moure-Eraso. I will characterize it this way. I use--I 
use--have reason to believe that the report has been tampered 
with and that the report was not a piece of that that I could 
trust, an integral objective evaluation of my agency. I have 
spent a lot of money contracting these people to give accurate 
information.
    Chairman Chaffetz. What evidence do you have of that, and 
when will you provide it to this committee?
    Mr. Moure-Eraso. I'm sorry?
    Chairman Chaffetz. When will you provide that information 
to this committee? If you have evidence of it, I want to know 
what it is, and I want to know when you're going to give it to 
me and----
    Mr. Moure-Eraso. As a matter of fact, I have a----
    Chairman Chaffetz. When are we----
    Mr. Moure-Eraso [continuing]. A number of emails. When the 
committee request us for information.
    Chairman Chaffetz. I'm requesting it right now. When are 
you going to give it to me?
    Mr. Moure-Eraso. We sent--we send it to you what I believe 
is 2,000 pages of emails, of interaction between Vantage----
    Chairman Chaffetz. Let's go back----
    Mr. Moure-Eraso [continuing]. And CSB.
    Chairman Chaffetz. Let's go back----
    Mr. Moure-Eraso. And you know, if you just look at what 
those emails said, if you will, you know. I have--I have here--
--
    Chairman Chaffetz. Hold on. Hold on. Our committee 
interacted with this same person who was changed as the 
contract of record. That happened on February 25 of 2015. Two 
days later, that person was demoted--2 days. Less than 48 
hours, he's demoted.
    Mr. Moure-Eraso. The reasons were, you know, I found an 
email from this person that said: ``to the--to Vantage, will 
not say anything about progress.'' Also, it says, Put in the 
slide saying leaders appear to be backing away from external 
advice and accompanying committees. As a result, in the 
document, it says, Senior leaders are backing away from 
external advice.
    My issue is, you know, is this a report of an independent 
objective consultant of professionals advising me, or is it 
simply they are basically transmitting----
    Chairman Chaffetz. I think it's because----
    Mr. Moure-Eraso [continuing]. The appearance of a hostile 
establishment.
    Chairman Chaffetz. I don't think you want to hear the 
truth. It's not like you've had one report. You've had Board 
members. You've had people quit. You have almost 50 percent of 
your people from 2011 who have actually quit and moved on. 
We're losing good people, decent people, who work hard for a 
living, who provide expertise that this government needs in 
order to do its job. And they can't stand you and the way you 
manage this place.
    We heard this repeatedly for hours. We shouldn't have to 
have the Chemical Safety Board come before this committee 
twice. This person meets with our committee staff, and less 
than 48 hours, he's demoted. He presents you bad information 
that you don't want to see in the Vantage report, and 8 minutes 
later, he is taken off the case. That is not a coincidence, in 
my opinion.
    Mr. Moure-Eraso. I have asked--I have asked the inspector 
general to look at the relationship between the contractor and 
this person because I believe they compromise the integrity of 
the statements that they are claiming to have objectively----
    Chairman Chaffetz. Last question.
    Mr. Moure-Eraso [continuing]. Evaluated.
    Chairman Chaffetz. Last question. The workplace improvement 
committee, how many times did they meet in 2014?
    Mr. Moure-Eraso. They meet very frequently. I will say more 
than 10 times since they have met, yes.
    Chairman Chaffetz. And I got to tell you it's not--well, my 
time is more than--more than expired, but nothing has ever been 
finalized. They're looking at low-hanging fruit. You don't want 
them to talk about management issues, and I got to tell you, I 
think we're very united in this. Until you leave this 
organization, these problems are going to persist. There is 
something rotten to its core, and it is you. And I believe--I 
didn't--I didn't start in that position, but I can tell you 
between you, Managing Director Daniel Horowitz, and General 
Counsel Richard Loeb, this is a dysfunctional, unfair, and 
unproductive organization. And good people are suffering. And I 
will do everything I can, in conjunction with my ranking member 
here, to make that change sooner rather than later.
    This has continued to fester. We need help from the White 
House and this administration, but good, decent people need 
help. I am calling upon them.
    I think you should be fired. I think the other two should 
be fired, but have the decency to actually step down and move 
this government forward.
    I yield back.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    The--Mr. Chairman Moure-Eraso, your agency hired a 
management consultant company, Vantage Human Resources, to 
examine the challenges to CSB.
    On February 12, 2015, Vantage provided you with a 
presentation that included results of interviews they conducted 
with CSB employees. Frankly, that report was devastating. 
Vantage found that 80 percent of CSB employees felt, ``much 
frustration with top leadership.'' Vantage also found that 47 
percent of employees had, quote, a perception of a climate 
where senior leadership discourages dissenting opinions.
    Let me ask you about what happened directly after the 
briefing, and I'm going to followup on some of the things that 
the chairman was saying.
    On that day, February 12, 2015, your managing director, 
Daniel Horowitz sent an email removing the contracting officer 
from the Vantage contract and designating himself instead. Were 
you aware of this removal action, and did you approve of it?
    Mr. Moure-Eraso. Yes. I found out that this report that I 
was counting on to help to do the work that we have was 
compromised and that the person that was in charge of it has 
interfered on the report, and I approved of removing him of 
having anymore responsibilities of running this contract.
    Mr. Cummings. Are you sure that the--I mean, what--now, so 
how did you find out that information?
    Mr. Moure-Eraso. I found out that information because we 
look at communications that were sent to you, to the committee, 
that you requested and emails in which there are secret 
communications between the CSB contracted officer and----
    Mr. Cummings. But wait a minute, you didn't get the 
communications till later, did you?
    Mr. Moure-Eraso. I got the communications because--I got 
the communications when I----
    Mr. Cummings. Mr. Horowitz--Mr. Eraso.
    Mr. Moure-Eraso. Yes.
    Mr. Cummings. I want you to listen to me. You got the 
communications later, did you not? And I want to remind you, 
you are under oath now.
    Mr. Moure-Eraso. Yes, I read the communications in the last 
3 or 4 days. This happened 2 weeks ago, you know. It's a very 
fast-moving situation and----
    Mr. Cummings. Well, now I'm really confused. I thought you 
just said--I asked you how did you find out, and you said you 
read some communications, and that was the basis of your 
approval.
    Mr. Moure-Eraso. Yes.
    Mr. Cummings. Is that right?
    Mr. Moure-Eraso. Could I explain to you----
    Mr. Cummings. Of course.
    Mr. Moure-Eraso [continuing]. How it happened? When--when I 
read the--what Vantage presented to me, and I inquired to 
Vantage what were the communications that it had with your 
staff, he refused to give me clear information about it. And I 
found it strange that information about progress that we have 
done about the Washington report and the problems that we have 
gone about steps that we have taken in the nine points--in nine 
points, programs that I have to improve issues, none of those 
things that were progress on the management of the agency 
appeared in the report.
    And I got suspicious about that because I have provided 
directly that information to Vantage, and they say that it was 
very important information to include what progress has been 
done. When that was missing and when--when he says that he was 
not commenting with anybody that--that that hasn't any of that 
information additional on the report, I thought that the report 
was incomplete and the report was----
    Mr. Cummings. But that was your opinion, right?
    Mr. Moure-Eraso. Exactly.
    Mr. Cummings. And you hired--well, you hired Vantage to 
look at this agency and render their opinion. They talked to 
employees. They put in the report what they thought was 
appropriate, and so now you're telling me that you approved 
that action because you suspected that--I mean, well, first of 
all, it didn't have everything you wanted in it and----
    Mr. Moure-Eraso. What I did, if I may, Congressman----
    Mr. Cummings. Yes.
    Mr. Moure-Eraso. What I did is say, I would like to see 
communications between the CSB contract--contract manager and 
the contractor. I read the communications, and that is when I--
what I am reading to you when I saw direct interference of the 
contract officer was trying to change the conclusions of the 
report. As a matter of fact, there was aprevious version of the 
Vantage report in which all the positive things appear, and in 
the second, all were erased.
    Mr. Cummings. Yes, you're--you're--I think you are right 
now hurting yourself, but I want to clear this thing up.
    Mr. Chairman, the chairman took 10 minutes. So we usually 
try to have equal time.
    Again, the very same day, your managing director, Horowitz, 
sent you an email. And we now have a copy of that email. In it, 
he asked for your permission to go through the former 
contracting officer's emails. The problem is, he doesn't say 
why he wanted to do this. He simply says that he wants to, 
quote, examine a confidential personnel issue.
    So you approved that request, right, just based on that?
    Mr. Moure-Eraso. I approved that because not based on the 
interview that I have with Vantage and the interview that I 
have with the person that made the--that----
    Mr. Cummings. All right. Let me ask you this.
    Mr. Moure-Eraso [continuing]. Made the report.
    Mr. Cummings. During your term as chairman, how many times 
have you approved a request from staff to go through an 
employee's emails? How many times have you done that?
    Mr. Moure-Eraso. That I remember, probably this is--this 
is--the time, I have to refresh my memory.
    Mr. Cummings. Let me ask you, do you--do you think there 
was another time?
    Mr. Moure-Eraso. It might be at least once before another 
time.
    Mr. Cummings. Can you tell us who that was?
    Mr. Moure-Eraso. I don't remember. I have to look at my 
records.
    Mr. Cummings. Why did you sign off on a request this 
significant, allowing someone to go through another employee's 
email, without specific information about why?
    Mr. Moure-Eraso. When--when there is what I consider that 
there might be some legal problems or that something is going 
to be detrimental of the agency, I will like to know what is 
happening, yes, and I did----
    Mr. Cummings. So you're saying that you would approve every 
single request under those circumstances that you just stated?
    Mr. Moure-Eraso. No, not every single request, a request 
that I believe the integrity of the agency is at stake.
    Mr. Cummings. Sir, this is a serious legal point. Let me 
ask you this. The meeting you all held--were hearing in 
February 2014 that examined surveillance of employee emails of 
the Food and Drug Administration. At that hearing, the 
inspector general recommended that the agency document the 
reasons for initiating, reviewing, and approving electronic 
monitoring, including opinions of legal counsel. Did you seek 
legal counsel before authorizing a search of these employee 
emails?
    Mr. Moure-Eraso. Yes.
    Mr. Cummings. And your counsel, is he copied on it?
    Mr. Moure-Eraso. Oh, yes. I mean, he--I requested----
    Mr. Cummings. He's not. He's not.
    Mr. Moure-Eraso [continuing]. The authority. I have verbal 
conversations with him about all of these developments.
    Mr. Cummings. So but you didn't send--you didn't provide 
him with a copy. Did you seek his advice?
    Mr. Moure-Eraso. I sought his advice, yes.
    Mr. Cummings. And who is your legal counsel? Who is that?
    Mr. Moure-Eraso. Mr. Loeb.
    Mr. Cummings. Is that the gentleman sitting behind you?
    Mr. Moure-Eraso. Yes.
    Mr. Cummings. All right. Now, why would you want--so you're 
saying you didn't exclude him from it. You just didn't send him 
a copy.
    Mr. Moure-Eraso. I discussed the issue with him, and I was 
told that I have the authority to do that under our rules, and 
I did it.
    Mr. Cummings. You know, this makes it sound like you are 
retaliating against employees. And I got to tell you, I've sat 
here now for the last 2 or 3 hours, and this is painful. This 
is painful, and it's got to be painful for you when you get a 
Vantage report which basically says that the leadership is the 
problem.
    And you know, I mean, have you thought about it? I mean, 
you've had several members ask you to take an early retirement. 
Have you considered that? I mean, for the good of the 
organization.
    Most people who truly care about an organization--and this 
organization does some very, very important work, but it seems 
as if, and the Vantage report bears this out, that you're not 
the right person to be the head of this, sir.
    And I know that--I know you've got a lot of pride and all 
that kind of stuff, but this is much bigger than you.
    Mr. Moure-Eraso. Mr. Cummings, but you know, you are--
you're saying that Vantage report said some negative stuff. My 
problem is I would very much want to believe what the Vantage 
report is, but, you know, the report has been compromised, the 
report has been interfered with. I will like to have to--I have 
asked for an investigation if this report is objective, if this 
report deserves to be used, and the conclusions are correct. 
That is my problem.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Meadows [presiding]. I thank the ranking member, and I 
would agree with him that you need to really evaluate this. I 
think the chairman, the ranking member have both been extremely 
eloquent but also piercing with their words, and my 
recommendation, for the good of the organization, is to take an 
early retirement.
    And so the chair recognizes the gentleman from Georgia, Mr. 
Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    And I agree with my other colleagues. This is extremely 
painful. It seems like with every question, the hole gets 
deeper and deeper and darker and darker along the way.
    I would like to continue walking down this path a little 
bit further on the Vantage report and direct my questions, Mr. 
Griffon, to you.
    You are familiar with the Vantage study, I assume.
    Mr. Griffon. Yes. Yes, I am familiar with it.
    Mr. Hice. OK. Do you--do you know the primary reason why 
the study was requested in the first place?
    Mr. Griffon. We had a prior group that did an assessment, 
the Carden Group, and the reason we did the followup was at the 
recommendation of the Carden Group that they need--that we 
needed to have another management consultant to help us look 
through the problems and make recommendations to reform.
    Mr. Hice. So I can take from that the Carden Group 
recognized that the problems likewise are deep and dark and 
they wanted more affirmation, and so that's----
    Mr. Griffon. Yes.
    Mr. Hice [continuing]. Kind of what----
    Mr. Griffon. Yes.
    Mr. Hice. OK. What is the primary problem that both of 
these studies, but let's focus on the Vantage, concerning the 
Chemical Safety Board, what is the primary issue that they 
discovered?
    Mr. Griffon. The primary issues point to senior leadership 
and the failure of senior leadership, failure of senior 
management, and there's several things about faulty 
communication, no ability to have dissenting views. All these 
things are very consistent with previous employee surveys we've 
seen, also the testimony of other Board members, very 
consistent.
    Mr. Hice. All right. But it basically came down to 
leadership.
    Mr. Griffon. Yes.
    Mr. Hice. And we have not one but two studies saying the 
same thing.
    Mr. Griffon. Yes.
    Mr. Hice. All right. Mr. Griffon, what is your reaction to 
the findings that the Board and, more specifically, that Mr. 
Moure-Eraso is the problem?
    Mr. Griffon. I'll just say that I've--at this point, I've 
lost all confidence in the chairman.
    Mr. Hice. And you're not the only one, it appears. So you 
would agree wholeheartedly with the outcome of the study?
    Mr. Griffon. Yes. I actually got a briefing from the head 
of Vantage in which he told me that the only way to fix this 
organization is going to involve a Marshall Plan, and I think 
that's pretty accurate.
    Mr. Hice. OK. You referred to, just a moment ago, several 
different issues, from a lack of collaboration to a lack of 
accountability to creating an environment that discourages 
dissenting opinions, a host of issues, and from the study, 
staggering, over 80 percent or somewhere in that category of 
people who were interviewed, agreed that we have a serious 
problem at leadership with all of these issues. How do you 
explain these general themes? I mean, they are--it appears from 
the questioning and the testimony that these things were wide 
in the open, right out in the open.
    Mr. Griffon. Yes. And, you know, I think, you know, all 
this starts with leadership, and I think if--hopefully going 
forward, leadership will realize that the Board has to lead 
together. The chairman has to work with the Board instead of 
going around Board orders, marginalizing Board members, et 
cetera.
    Mr. Hice. It appears the root has been discovered. We just 
need to pull it up.
    Mr. Chairman, I am going to cease continued questions, but 
I would ask for unanimous consent to enter a copy of the 
Vantage report into the record.
    Mr. Meadows. Without objection, so ordered.
    Mr. Hice. And I yield my time. Thank you.
    Mr. Meadows. I thank the gentleman from Georgia. The chair 
recognizes the gentleman from Oklahoma, Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    And Mr. Chairman, ranking member, members of the committee, 
I'm concerned that this problem, even if Dr. Moure-Eraso does 
do the honorable thing and the needed thing of stepping down, 
that this problem will perhaps perpetuate itself with the 
creation of a Senior Executive Service position for the 
managing director. And so my question to you, Dr. Moure-Eraso, 
is did the Chemical Safety Board announce the creation of a 
Senior Executive Service position as managing director?
    Mr. Moure-Eraso. Yes, we have that.
    Mr. Russell. Was it announced just yesterday?
    Mr. Moure-Eraso. It was announced, yes.
    Mr. Russell. Yesterday?
    Mr. Moure-Eraso. Yes, it was.
    Mr. Russell. Dr. Eraso, numerous whistleblowers have stated 
that you fast-tracked the creation of this new SES position to 
make sure that Mr. Horowitz would be put in it before you left 
the Chemical Safety Board. Was this position created----
    Mr. Moure-Eraso. It's absolutely untrue.
    Mr. Russell [continuing]. For Daniel Horowitz?
    Mr. Moure-Eraso. It's absolutely untrue. This is--as a 
matter of fact, that's the reason why I have an outside 
consultant to come in to run the campaign to open a----
    Mr. Russell. So this position was put up on the Board for 
review, and then we have a Mr. Horowitz changing his title to 
senior advisor to the Deepwater Horizon investigation, and he 
did that on March 2. Is that true?
    Mr. Moure-Eraso. He has that position.
    Mr. Russell. He changed his title so he would what, qualify 
for the position?
    Mr. Moure-Eraso. The position is open for anybody that 
wants to--I mean, the system of the Office of Personnel 
Management is that you open a position in the Federal 
Government for anybody to apply.
    Mr. Russell. So let me understand the sequence of attack 
here. Draconian policies can be furthered by creating an SES 
position as managing director. Position is posted up on the 
Board for anyone, as you state, to apply, and magically, Mr. 
Horowitz changes his title so he somehow positions himself, and 
now it is your intention to hire him for this position. Is that 
about right?
    Mr. Moure-Eraso. The position of managing director have 
always existed at different times in the--in the--in the 
organization.
    Mr. Russell. But this one is a new position. Is that 
correct, the managing director?
    Mr. Moure-Eraso. The managing director has existed since 
September 2011.
    Mr. Russell. And so now you are intending to--what--even 
after you retire, continue your toxic work environment as was 
stated in these survey----
    Mr. Moure-Eraso. What I intended to do----
    Mr. Russell [continuing]. Position?
    Mr. Moure-Eraso. Open the position to be----
    Mr. Russell. How far do the----
    Mr. Moure-Eraso [continuing]. In the----
    Mr. Russell [continuing]. Go into this organization that 
you have to have a grip on it even after you would leave, 
whether honorably or dishonorably in 15 weeks, that you would 
continue to set everything in motion so that you keep your 
little web in control of something so vital to the country? Is 
that--is that the intention, or do I have it wrong?
    Mr. Moure-Eraso. You have it wrong.
    Mr. Russell. I see. OK. And after listening to all of the 
testimony and the answers given so far, we'll let the people of 
the United States be the judge there.
    Mr. Griffon, Mr. Engler, Mr. Ehrlich, given the lack of 
confidence in senior leadership that has been highlighted in 
the H.R. consulting report, you know, I think back to when I 
was in the military, if I got a command climate survey as a 
commander of 1,000 soldiers and it said that 80 percent of my 
soldiers thought I was incompetent to lead and then it was 
followed up with a Board and testimony and then I would have to 
come back and show some type of gain, whether 3 months, 6 
months later, or something of that nature, and yet the follow-
on reports were even worse and then I was called on the carpet 
before, I would be relieved of command. I mean, it would be 
just absolutely--that would be the result. I would be relieved 
of command. Do you think that hiring Mr. Horowitz for an SES 
position is a good idea at this time, given the climate that 
the command safety board has?
    Mr. Griffon, please.
    Mr. Griffon. I think, you know, I think the evidence speaks 
for itself as far as the problems with management, and I think 
it should involve a careful assessment of whether he is the 
appropriate person to----
    Mr. Russell. Do you believe that it ought to have more time 
other than just be posted and then titles being changed and 
then people being recommended and then we just go from there, 
or do you think that this thing might ought to have some brakes 
put on it and get--one, do you even need it? We look at the 
Veterans Affairs Administration and see the problem that our 
Senior Executive Services have created with the Secretary. 
That's a whole different issue, but now we are going to make a 
construct to potentially do that.
    Mr. Engler, do you think that it's appropriate at this 
time?
    Mr. Engler. I think that it needs to be a full, fair, and 
objective evaluation. I would--given how fast other things have 
happened, I would urge things go slower but in accordance with 
Federal statutory and regulatory personnel requirements.
    And if I could just add for the record, part of my briefing 
was very useful from the CSB staff. And I appreciate the CSB 
staff at updating me, but there were some notable exceptions to 
what was not included in my briefing that I think should have 
been. One was any reference to the Cardon report. One--another 
was any detailed review of the Vantage report, which in fact I 
had to request a copy of to get, which I did get. But then when 
I requested to have a conversation with the contract--with the 
contractor over the last couple of days, apparently because of 
the--I don't know how to characterize it as a sort of a 
counterattack on this committee, that because there's a request 
to the IG, now it's something that I don't have access to, I 
mean, this is making due diligence for me very, very difficult. 
And it's just an incredibly challenging position to be in as 
someone who cares very, very deeply about the mission of the 
Board, to have to encounter these obstacles in the first days 
of appearing here.
    Mr. Russell. Well, my time is expired, and Mr. Chairman, I 
thank you for your patience, and I think I can speak for all of 
us that we are committed to try to help remove these obstacles.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman from Oklahoma.
    The chair recognizes the gentleman from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    If you would, could we show the OMP--the OPM survey and the 
CSB worker satisfaction slide. Thank you.
    Chairman Moure-Eraso, if you look at these statistics on 
employee satisfaction, they indicate an agency in turmoil. In 
particular, it would appear from this that the satisfaction of 
your senior leadership, which in this case would seem to be 
yourself as Chairman, your top staff, such as Mr. Loeb and Mr. 
Horowitz, why do you think these numbers are so low?
    Mr. Moure-Eraso. You know, we run an agency, as was 
explained before, that has very little resources, that does 
have, I agree, leadership problems. We have a--a Board that 
is--functions without any agreement, and they are in constant 
conflict. All that create a situation that I believe the people 
and the staff feel that the leadership of the agency is not to 
their liking.
    Mr. Palmer. Let me ask Mr. Griffon and the rest of the 
Board, but particularly Mr. Griffon, as long as you work with 
the Chairman, you might have some more detailed thoughts on 
this. Can you give us some insights into why you think these 
numbers are so low?
    Mr. Griffon. Well, I think the number--I think part of it 
is that the Board--we've had the--a series of maneuvers and 
operations and ways to get around orderly Board order--Board 
orders are governance, and I think if the Board can make a 
commitment to say that we will all follow the Board orders, 
then a lot of the conflict on the Board would go away.
    That certainly contributes to it, but I also think it goes 
deeper than that. It's the ways in which staff are not--a fear 
of retaliation. There's a real fear of retaliation. There's not 
an openness for dissenting opinions to be shared, so it's much 
deeper than that. But this has gone on for quite some time. I 
guess my biggest disappointment is, even after the hearing in 
June, I urged everyone to reflect and let's try to reform. And 
I think instead, we continue to deflect and defend: It's lack 
of resources, lack of staff. It's never management problems.
    And I think they are--the evidence is there. It's very 
clear. We have to accept them and try to actually reform the 
place.
    Mr. Palmer. Yes, sir.
    Mr. Ehrlich. I can't speak to the date that was gathered 
some time ago. What I can speak to is the issue of how data was 
handled in the Vantage study. In my----
    Mr. Palmer. We already covered that, I think, earlier in 
the hearing.
    Mr. Ehrlich. But I wasn't asked. You asked me why I--what I 
thought was going on, and I'd like to tell you, sir.
    Mr. Palmer. Go ahead.
    Mr. Ehrlich. I have talked to almost everybody in the 
agency. I have a background in organizational diagnosis as well 
as chemistry. I think there are some issues, yes, but I know 
for a fact--and the emails are forthcoming to the inspector 
general--that a person inside, two people inside the agency 
told the contractor--by the way, the contractor, who lied to us 
that nobody had ever seen this report up until the day it was 
presented--we have data which will be submitted to you that 
says in fact that two people inside of the agency told the 
contractor to change the data so that it was in fact not very 
positive.
    Mr. Palmer. That's noted. Thank you.
    Mr. Ehrlich. You're welcome.
    Mr. Palmer. Mr. Griffon, would you please briefly explain 
Board Order 28. On January 28, there was a motion which 
rescinded Board Order 28 which established significant checks 
on the chairman. Would you explain that?
    Mr. Griffon. Yes. Board Order 28 came about after some--
some earlier arguments in the life of the Board, of governance 
on the Board, and it delineated the authorities of the chairman 
versus the Board as a whole, and it allowed for several checks 
and balances, including voting on budget allocation of funds as 
well as the appointment of heads of administrative units as 
well as large expenditures. And I think some of these I 
referenced in my opening statement that some of these 
principles were outlined by Senator Lautenberg when this 
initial dispute was going on. He thought that those checks and 
balances were very important, and I should also point out that, 
during a period of time under Carolyn Merritt, it seems that 
these Board orders, perhaps there were arguments here and there 
about them, but overall, they operated under those Board 
orders, and they were pretty productive, and I think that was 
working. And if you want to amend these, they should be done by 
the full Board, not----
    Mr. Palmer. Quickly.
    Mr. Griffon [continuing]. In the dark of night.
    Mr. Palmer. Do you believe that Chairman Moure-Eraso 
adhered to these, to Board Order 28?
    Mr. Griffon. No. I think even when--even when we were 
supposedly operating under Board Order 28, Chairman Moure-Eraso 
appointed a person to an administrative unit head, which I 
objected to, in violation of that Board order. It should have 
been a Board vote for that position, and he--he proceeded with 
the appointment unilaterally.
    Mr. Palmer. Mr. Chairman, I would like to enter Board Order 
28 into the record.
    Mr. Meadows. Without objection, so ordered.
    Mr. Palmer. My time is expired. Thank you, Mr. Chairman.
    Thank you, the witnesses.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman.
    We all know the mission of the U.S. Chemical Safety Board 
is to investigate chemical accidents and issue timely findings 
and recommendations in order to prevent future accidents, and 
we are all here because the serious management deficiencies at 
the Chemical Safety Board have prevented this independent 
agency from fulfilling its mission. And my first question, 
Chairman Moure-Eraso, you know, the CSB plays a very important 
role in public safety. Members of this committee have expressed 
their concern, as my colleague from Virginia said, about the 
dysfunctional culture at CSB and your ability to remain as 
chairman.
    And your current former Board colleagues have testified to 
the hostile climate at CSB. Former CSB Board Member Beth 
Rosenberg stated that those whose opinion differed from those 
of senior leadership or the Chair are marginalized and 
vilified. You have 15 weeks--is that correct, sir--left?
    Mr. Moure-Eraso. Yes, 15.
    Mr. Hurd. And you have said, I think, many of my colleagues 
have intimated or outright said they think it's time for you to 
step down. And you responded with you have work to do. What 
work do you think you can do to fix these major problems in 15 
weeks?
    Mr. Moure-Eraso. First of all, Mr. Congressman, I disagree 
with your premise that the core mission of the agency is not 
being fulfilled. As I expressed before, in the last 8 months, 
we have produced the eight excellent interview and reports with 
videos of our investigations. We have completed 22 
investigations. The core mission of the agency is being made.
    Mr. Hurd. Is that because of you or in spite of you?
    Mr. Moure-Eraso. It's because the agency works, and the 
product that we have is the evidence that the agency works.
    Mr. Hurd. And what do you plan on doing the remaining 15 
weeks of your time?
    Mr. Moure-Eraso. We still have three major reports that are 
in the process of being finished, and I would like to bring 
those reports to an end in the next weeks that I have.
    Mr. Hurd. Mr. Ehrlich, question for you. On February 12, 
2015, you submitted a letter to the editor of the National 
Journal claiming that the Office of Special Counsel never 
substantiated any claim of whistleblower retaliation by the 
CSB's management after years of inquiry. Can you explain how 
you arrived at this conclusion and what is the basis for this 
claim?
    Mr. Ehrlich. Well, I understand that that came about in 
the--in the hearing last year, and I asked the questions of the 
staff, was that information ever transmitted into the agency? 
And I was told no, and I accepted that on the face of it and 
accepted it to be true and wrote it in that article.
    Mr. Hurd. And so do you have a change of opinion now?
    Mr. Ehrlich. No, sir.
    Mr. Hurd. Did the Board receive formal communication from 
the Office of Special Counsel?
    Mr. Ehrlich. I don't know, sir.
    Mr. Moure-Eraso. If I may, Congressman.
    Mr. Hurd. Sure.
    Mr. Moure-Eraso. The Office of Special Counsel has been 
investigated--investigating the agency for 3 and a half years. 
They have come out with no findings. They have come out with no 
instances of retaliation, period.
    Mr. Hurd. So noted. Thank you.
    Mr. Ehrlich, last question for you. Have you ever used 
personal email to conduct official CSB business?
    Mr. Ehrlich. Not that I haven't copied my own email on in 
my office.
    Mr. Hurd. And who are you communicating that?
    Mr. Ehrlich. At CSB.gov. I think I've sent emails from home 
on my personal email, but I copy my CSB.gov file.
    Mr. Hurd. Great. Thank you.
    And my last question is for inspector general Sullivan. 
What is the process of removing a Board member from the U.S. 
Chemical Safety Board or the Chairman?
    Mr. Sullivan. Well, we would not be involved in any process 
of removal. What our role would be is to present the facts in a 
clear and unbiased way, present them to the next level above to 
take--to take the potential disciplinary action. In this case, 
our report of investigation was sent to the President because 
he is in effect Dr. Moure-Eraso's supervisor.
    Mr. Hurd. Is it odd to have named the Chairman before--15 
months before the end of someone's tenure?
    Mr. Sullivan. Can you repeat your----
    Mr. Hurd. In your opinion?
    Mr. Sullivan. I didn't understand the question, Mr. Hurd.
    Mr. Hurd. The fact that the President named a replacement 
Chairman yesterday, is that right, March 3, is that a common 
practice?
    Mr. Sullivan. I don't know, sir.
    Mr. Moure-Eraso. If I may, Congressman.
    Mr. Hurd. Sure.
    Mr. Moure-Eraso. The process is that the President 
nominates a person. What has happened is that the President 
nominated a person to be the Chairman. The process now has to 
follow by the Senate to confirm.
    Mr. Hurd. Confirmation, right.
    Mr. Moure-Eraso. But, at this time, all that we have is a 
name that the President has presented for consideration to the 
Senate.
    Mr. Hurd. Thank you for that clarification.
    I yield back the balance of my time.
    Mr. Meadows. I thank the gentleman.
    Mr. Ehrlich, let me clarify something that Mr. Hurd just 
brought up. You are very confident when you said you only used 
your personal emails only if you copied your official email. 
Did you copy those personal emails to your official account at 
a much later time than when you were actually having it back 
and forth?
    Mr. Ehrlich. Not to my recollection, sir.
    Mr. Meadows. So--but you were very clear in your answer to 
Mr. Hurd----
    Mr. Ehrlich. I was.
    Mr. Meadows [continuing]. That you did that. So you are 
confident that each time that you copied--when using your 
personal email, that you copied it, because you're under oath.
    Mr. Ehrlich. I understand that, sir.
    Mr. Meadows. And you're confident of that. That's your 
testimony here today.
    Mr. Ehrlich. It is. My recollection is that that is exactly 
true.
    Mr. Meadows. Recollection is very different than what you 
told Mr. Hurd.
    But we'll go ahead and recognize the gentleman from 
Georgia, Mr. Carter.
    Mr. Carter. Thank you.
    Thank you, Mr. Chairman.
    And thank you, gentleman, for being here today. We 
appreciate your presence.
    Let me ask you, Dr. Moure-Eraso, getting back to January 28 
when, the motion was made to consolidate some powers, do you 
think that was a pretty significant motion that was made that 
day? Pretty significant change; would you agree?
    Mr. Moure-Eraso. The only thing that was different about 
the meeting that we have in January 28 is that I have a clear 
majority that was backing the position. That was the only thing 
that was especially different.
    Mr. Carter. I'm sorry, I didn't understand you.
    Mr. Moure-Eraso. That I have a majority on the position 
that was presented in a motion. That was the only thing that 
was different in the----
    Mr. Carter. I'm talking about the change that was made. The 
change, was it significant? Would you consider it significant--
--
    Mr. Moure-Eraso. Yes, the change, of course, it was 
significant, yes.
    Mr. Carter. Who made it? Who made the motion?
    Mr. Moure-Eraso. This is a process of 4 and a half years of 
discussion on the governance of leadership that we have.
    Mr. Carter. No, no, no. Who made the motion?
    Mr. Moure-Eraso. The motion was made by Board member 
Ehrlich.
    Mr. Carter. By Mr. Ehrlich.
    Mr. Moure-Eraso. Yes.
    Mr. Carter. Mr. Ehrlich, let me ask you, you made that 
motion on January 28, right?
    Mr. Ehrlich. Yes, sir.
    Mr. Carter. When did you join the Board?
    Mr. Ehrlich. I was appointed in December 2014.
    Mr. Carter. You were appointed in December 2014, and then 
you made what is admittedly, by the director, a significant 
motion, a significant change. Is that correct?
    Mr. Ehrlich. Yes.
    Mr. Carter. Now, that's pretty quick. You're pretty 
aggressive there. Let me ask you, you were appointed. Who 
appointed you? How did you get appointed?
    Mr. Ehrlich. I was nominated by the President, confirmed by 
the Senate.
    Mr. Carter. OK.
    Mr. Ehrlich. Appointed by the President.
    Mr. Carter. And during that confirmation process, did you 
ever--did you ever discuss what you--I mean, obviously, you've 
been thinking about doing this. Did you ever discuss that?
    Mr. Ehrlich. Well, yes, I did. I watched what was going on 
when I came in. I did a lot of reading. I was provided with a 
lot of information before I came to Washington. And I saw this 
as an opportunity, as you do, for example, in a business 
environment to fix some things that didn't appear correct and 
clear the slate for Mr. Engler and I to move forward in June.
    Mr. Carter. Did you discuss it with anyone before you made 
such a significant motion?
    Mr. Ehrlich. I discussed it internally, yes.
    Mr. Carter. Internally. With who?
    Mr. Ehrlich. With the Chair, with the managing director, a 
few of the people in the organization, staff members.
    Mr. Carter. So you did discuss it with the Chair that you 
were going to make this motion, and I assume he was in 
agreement with that?
    Mr. Ehrlich. Yes, sir.
    Mr. Carter. Was anyone in opposition to it? Did you talk to 
anyone who said, No, I don't think that's a good idea?
    Mr. Ehrlich. I did not.
    Mr. Carter. OK. But you went ahead and did it anyway?
    Mr. Ehrlich. I did.
    Mr. Carter. You know, again, I find that--that significant, 
to say the least. Did anyone help you with it, or you just came 
up with that on your own?
    Mr. Ehrlich. Well, no, I got help internally to put some of 
the verbiage together, yes.
    Mr. Carter. Who helped you?
    Mr. Ehrlich. Managing director, general counsel, the Chair. 
I talked to some of the senior investigators, or one of the 
senior investigators.
    Mr. Carter. So the Chair did help you in crafting this 
motion?
    Mr. Ehrlich. At some level, yes, sir.
    Mr. Carter. You know, that's--that's pretty significant. It 
seems--so would you--would you say that you had an agenda when 
you came on the Board?
    Mr. Ehrlich. Well, I had an agenda to the extent that I 
wanted to see the Board--I wanted to see the agency function 
more smoothly. I wanted rules and regulations that were up to 
date. I wanted to apply a business model from my executive 
management that would help bring it up----
    Mr. Carter. OK. But were you aware of what existed at the 
time? I mean, after only 3 weeks, you know, I'm not sure how 
aware you could have been, and when I'm talking about then, I'm 
talking about the morale of the employees, about just what has 
obviously here been described as a very, very disruptive work 
force.
    Mr. Ehrlich. I have, and yes, I had talked to a number of 
employees in that period of time. And I understand where some 
of the problems were. And I felt that we could take action at 
the time, at the Board meeting, since it was the only one--or 
the community meeting, since it was the only one scheduled, to 
correct some of the issues and move forward and clean the 
slate.
    Mr. Carter. So understanding that a lot of the concern 
among the work force and in the workplace was that of the 
director, instead you made a motion to give him even more 
power.
    Mr. Ehrlich. Sir, I never--when I talk to people--first of 
all, I didn't give him any more power. He's not going to be 
there. It gave Mr. Engler and I the ability to--and future 
Chairs for power. I never talked to anybody in the organization 
that had anything negative to say to me about the Chair. They 
had things to say about communication. There was no finger 
pointing as to who was responsible or not. They had issues 
about the fact that we need to work on a--on a protocol, on a 
style guide. All of these things, I would assume, had been 
discussed on Mr. Griffon's shift.
    Mr. Carter. You would assume.
    Mr. Ehrlich. Well, I know some of them were discussed, yes, 
OK. And just to clarify an issue from before, Mr. Engler and I 
had a discussion about going back and looking, for example, at 
an HF issue. In fact, we talked about how the research would be 
done on it because I understood that that created some issues. 
So we agreed that we were going to look at it and decide how we 
could move forward collegially.
    Mr. Meadows. The gentleman's time has expired, but the 
chair is going to ask a followup question to this because the 
gentleman from Georgia is exactly right.
    Mr. Ehrlich, it is troubling that you--you are an 
unbelievable quick study. After being there just a couple of 
weeks, you made all of this unbelievable analysis. So who 
drafted the motion, Mr. Ehrlich?
    Mr. Ehrlich. I was----
    Mr. Meadows. Because I have reason to believe that it was 
not you that drafted the motion. Who drafted the motion?
    Mr. Ehrlich. It was drafted within the organization----
    Mr. Meadows. By who?
    Mr. Ehrlich [continuing]. And I agreed to it.
    Mr. Meadows. By who?
    Mr. Ehrlich. By the Chair, by the managing director, by----
    Mr. Meadows. So let me understand this. The Chair drafts a 
motion for you to make the motion to give the Chair more power.
    Mr. Ehrlich. Not in--not in its entirety. I wrote a lot of 
it and I had----
    Mr. Meadows. Well, we've got the transcript, and we'll----
    Mr. Ehrlich. I wrote the verbiage----
    Mr. Meadows [continuing]. Follow it up.
    Mr. Ehrlich [continuing]. That----
    Mr. Meadows. So did the general counsel--did the general 
counsel draft the motion?
    Mr. Ehrlich. No, but he talked to me about the verbiage.
    Mr. Meadows. All right. So you drafted it?
    Mr. Ehrlich. Yes.
    Mr. Meadows. So if we subpoena your records, it will be a 
draft form in yours, Mr. Ehrlich? Is that your testimony? I 
would be careful there.
    Mr. Ehrlich. I believe so, but I'm not 100 percent sure.
    Mr. Meadows. So is your testimony that you drafted it or 
you didn't? I'm giving you a chance to back up.
    Mr. Ehrlich. I signed off on the draft. I made----
    Mr. Meadows. So you didn't draft----
    Mr. Ehrlich [continuing]. Changes.
    Mr. Meadows. You didn't draft it.
    Mr. Ehrlich. So I needed--I needed assistance from inside--
--
    Mr. Meadows. Mr. Ehrlich, I will remind you that you are 
under oath, and when you--you're the one that used the word 
``lie'' earlier, but when you do not tell the truth to this 
committee, it is a major deal. So did you draft it? Is that 
your testimony, yes or no?
    Mr. Ehrlich. The final draft was mine, yes. Did I drew all 
of the drafts? No.
    Mr. Meadows. All right.
    The chair will recognize the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. OK. A followup question for you.
    Mr. Meadows. Can the gentleman turn on his mic?
    Mr. Grothman. Followup question for you. There was a 
meeting on January 28. Did you provide a 1-week notice of the 
Board vote on that meeting?
    Mr. Ehrlich. I did not.
    Mr. Grothman. OK.
    Mr. Moure-Eraso. If--might I say, you know, when we have a 
public meeting, we have to put a public description of the 
meeting in the Federal Register. It was in the Federal Register 
according with law, and it was said in the Federal Register 
that we were to discuss the Chairman report and we were going 
to discuss administrative matters and vote on administrative 
matters. All that is in the Federal Register.
    Mr. Grothman. Did you provide Board Member Griffon a copy 
of the motion prior to the hearing?
    Mr. Moure-Eraso. No. There is not a custom in our agency to 
do that. As a matter of fact, I have experiences before in 
which a Board orders--I mean, proposals for voting are kind of 
sprung at the moment and voted immediately without providing 
copies to other Board members.
    Mr. Grothman. OK. So he didn't have an opportunity to 
review the motion prior to the vote?
    Mr. Moure-Eraso. Well, all the issues that are related--
that appear in the motion have been in discussion for 3 and a 
half years--issues of Board Order 28, as was mentioned, issues 
of how we are going to do the recommendations, issues of how we 
are going to do scoping of investigations, issues of what--what 
have been produced in this for all investigations so that we 
could basically administrative close with the problem that we 
have already producing them. All those things have been in 
continuous discussion with Mr. Griffon.
    Mr. Grothman. I would like to ask Mr. Griffon to comment on 
that, how much advance notice you were given.
    Mr. Griffon. I had no notice of the motion, you know. Other 
issues have been under discussion for years, but if you can't 
get a majority to support amendments to Board orders, then they 
don't move, so that's the way a Board should operate. This was 
clearly a--planned out when the Chairman had the votes.
    Mr. Grothman. OK. So you feel it was by design that you 
weren't given a copy of the motion? Would that be an accurate 
statement?
    Mr. Griffon. Yes, I can't come to any other conclusion, 
yes.
    Mr. Grothman. OK.
    Mr. Moure-Eraso, just one more question. Under the Sunshine 
Act, it requires agencies to make public announcements at least 
1 week in advance of--you should be noticing location, the 
time, and the subject matter of the Board meeting. Do you feel 
that you complied with that statute?
    Mr. Moure-Eraso. Yes, pretty much. The Federal Register 
notice that we put about the meeting speaks for itself. You can 
read it.
    Mr. Grothman. OK. I'll yield the rest of my time.
    Mr. Meadows. So your testimony is you pretty much adhered 
to it, is that correct, Dr. Eraso, pretty much? I mean, so----
    Mr. Moure-Eraso. Yes. Well, I----
    Mr. Meadows. On a scale of 1 to 10 with being completely, 
would you put it--is that a 7?
    Mr. Moure-Eraso. Well, I am unclear about what the Sunshine 
Act requirements are to discussion about administrative matters 
in public meetings. I am not clear about that.
    Mr. Meadows. All right.
    Thank you, Doctor.
    The chair recognizes the gentleman from South Carolina, Mr. 
Mulvaney, for a few followup questions before we have closing 
remarks.
    Mr. Mulvaney. I appreciate that, and I appreciate the panel 
staying and the chairman allowing the indulgence of. Just a 
couple of followup questions.
    First, Dr. Moure-Eraso, the ranking member asked you why 
you didn't sign the compliance statement when you turned over 
your email documents. I have your letter, which you provided 
earlier, and then I have the statement which isn't here, and 
there are two things I want to draw to your attention, the 
statement that you didn't sign.
    This isn't the statement they asked you to sign. There's 
the introductory paragraph about who you are, who you asked, 
and by the inspector general to fill out some stuff. So if I 
mention--the next sentence, In good faith, I have made a 
diligent search of all the records and communications, and you 
sort of say that in your--in your letter.
    Then you say--the next thing in the section of the document 
you didn't sign asked you to affirm that your methodology to 
collect email records included conducting a search of personal 
email, which is such and such, and to use the following search 
term, ``Jason Zuckerman,'' ``Peter Broida,'' et cetera, et 
cetera. And your document that you did draft or your counsel 
drafted for you and that you signed said that you searched the 
names that the IG had requested, so so far so good.
    Then the next paragraph of the document you didn't sign 
says, I also developed the additional search terms based upon 
my review in order to make sure my search included the full 
scope of email communications pertaining to official CSB 
matters. And there is places where you could have filled in the 
blank for additional search terms. Now, your letter didn't 
speak to that. Did you use any other search terms other than 
the names that were given to you by the IG?
    Mr. Moure-Eraso. I used--I think there was a long list, 
more than 1-page long. I cannot tell you each one of them, but 
you know, there was a number of search terms that were used.
    Mr. Mulvaney. No, well, I'll read them to you. And again, 
I'm not trying to trick you. The search terms were ``Jason 
Zuckerman,'' ``Peter Broida,'' ``Daniel Horowitz,'' 
``Christopher Warner,'' ``Office of Special Counsel,'' ``OSC,'' 
``SC,'' and ``special counsel.'' So I guess the question is, in 
the next paragraph of a document you didn't sign, there is an 
opportunity to disclose other search terms that you might have 
used in looking for the documents.
    Mr. Mulvaney. Did you use any search terms other than those 
I've just read to you in searching your documents?
    Mr. Moure-Eraso. I might have. I mean, what happens is that 
when we use those terms we drew a blank. This is working with 
my chief information office at my computer. So we'll start 
using--let's put some other terms to see what the IG is trying 
to find.
    Mr. Mulvaney. When you searched those terms, you drew 
blanks in your private emails?
    Mr. Moure-Eraso. The ones that you have in there, some of 
them, yes, I drew blanks.
    Mr. Mulvaney. OK. All right. That's interesting.
    Mr. Moure-Eraso. Some for my Gmail, in which--for instance, 
when I put ``CSB''----
    Mr. Mulvaney. Yes.
    Mr. Moure-Eraso [continuing]. It drew a blank. When I put 
``Zuckerman,'' it drew a blank.
    Mr. Mulvaney. OK.
    Mr. Moure-Eraso. So, you know, it was--I wanted to be 
responsive, you know.
    Mr. Mulvaney. All right.
    The last paragraph says, ``The materials provided to the 
EPA are genuine and complete,'' and you say that in your 
document.
    This is the last substantive sentence of the document you 
didn't sign: ``I took no intentional action to destroy, delete, 
or remove any official CSB email communication in my 
possession.'' That's missing from here. Why is that?
    Mr. Moure-Eraso. Yes, it's missing. You are asking if I 
destroyed any document?
    Mr. Mulvaney. No, I'm asking----
    Mr. Moure-Eraso. The answer is no.
    Mr. Mulvaney. Why didn't you put that in your letter?
    Mr. Moure-Eraso. I guess--it wasn't required for me to put 
that. But, you know, I----
    Mr. Mulvaney. It wasn't required? No, it was required. It 
was in a document that they sent you. And you didn't sign this 
document.
    Mr. Cummings asked you a question----
    Mr. Moure-Eraso. Well, but you are talking about a document 
that I don't have. How could I answer the question?
    Mr. Mulvaney. I can--I just read it to you.
    Mr. Moure-Eraso [continuing]. Without having it in front of 
me and having time to evaluate what you're asking, I cannot----
    Mr. Mulvaney. You haven't looked at this document?
    Mr. Meadows. Would the gentleman--will the gentleman yield 
for just----
    Mr. Moure-Eraso [continuing]. Probably months ago.
    Mr. Mulvaney. Did you want to give him the document?
    Mr. Meadows. Dr. Eraso, you're the one that gave that to 
us.
    Mr. Moure-Eraso. No, I didn't.
    Mr. Meadows. I'm not talking about the inspector general's 
report, but----
    Mr. Moure-Eraso. I'm talking about Mr. Sullivan's document. 
I don't have Mr. Sullivan's document.
    Mr. Meadows. But you've seen the document that they asked 
you to sign.
    Mr. Moure-Eraso. Probably 6 months ago, yes.
    Mr. Meadows. OK.
    Mr. Mulvaney. Dr. Moure-Eraso, did you intentionally, or I 
guess unintentionally, destroy, delete, or remove any 
official----
    Mr. Meadows. Will the gentleman suspend for just a second?
    Mr. Mulvaney. I'd be happy to.
    Mr. Moure-Eraso. No. The answer is no.
    Mr. Meadows. Will the gentleman suspend for just a second?
    Dr. Eraso, the ranking member makes a very good 
recommendation. We think you ought to read the document right 
now. And I think that's a very fair request.
    And, Mr. Mulvaney, if you'll give it to him.
    Mr. Moure-Eraso. Thank you.
    Mr. Mulvaney. You're welcome.
    Mr. Moure-Eraso. So I guess you were asking about this last 
paragraph here?
    Mr. Mulvaney. Yes, sir.
    Mr. Moure-Eraso. It says, ``The materials provided to the 
EPA are genuine, complete, and in full compliance with the 
request. I took no intentional action to destroy, delete, or 
remove any official CSB email communications in my 
possession.''
    The answer to that question is that's correct. I absolutely 
never took intentional action to destroy, delete, or remove any 
official CSB communications in my possession.
    Mr. Mulvaney. All right. Then I think we leave open for 
now, Doctor, the question that the ranking member asked you, 
which is why you didn't sign the document. But I appreciate 
that.
    Before we let you go, Mr. Ehrlich, you said some things 
just a few minutes ago that caught my attention. It was not 
part of my original questioning, but I'm fascinated by it.
    What is a scoping document?
    Mr. Ehrlich. A scoping document is a document that's used 
to determine the magnitude of an incident and from a numerical 
scale that's derived from it.
    Mr. Mulvaney. When did you learn that? When did you learn 
what a scoping document was?
    Mr. Ehrlich. Right after I came to the agency.
    Mr. Mulvaney. OK.
    I'm looking at the motion that the gentleman from Georgia 
asked you about--it's, I don't know, 10 pages double-sided--
that you said you offered after being there for about 3 weeks. 
Is that correct?
    I guess, let me ask the question a different way.
    Dr. Moure-Eraso, were you involved in drafting this 
document?
    Mr. Moure-Eraso. I had discussions with Mr. Ehrlich about 
different details of the document.
    Mr. Mulvaney. Were you involved in drafting this document?
    Mr. Moure-Eraso. Drafting itself? No.
    Mr. Mulvaney. Did you instruct somebody to draft all or 
part of it?
    Mr. Moure-Eraso. I didn't instruct anybody.
    Mr. Mulvaney. You've never asked anybody to draft any part 
of this amendment----
    Mr. Moure-Eraso. I never----
    Mr. Mulvaney [continuing]. This motion?
    Mr. Moure-Eraso. I never give instructions to anybody to 
draft that motion.
    Mr. Mulvaney. No, that wasn't my question. Did you ask 
anybody to work on this motion?
    Mr. Moure-Eraso. No.
    Mr. Mulvaney. Who did?
    Mr. Moure-Eraso. Mr. Ehrlich.
    Mr. Mulvaney. So this is just your work.
    Mr. Ehrlich. I worked with others on it because I needed to 
know the language and the format. I worked with the managing 
director, and I worked with general counsel.
    Mr. Meadows. All right. I thank the gentleman from----
    Mr. Mulvaney. Oh, I'm sorry. Yes, I'm out of time. Thanks.
    Mr. Meadows [continuing]. South Carolina, whose time has 
expired.
    I will say that the gentleman from Alabama has a followup 
question. We're going to ask him to submit it, and it is an 
answer that this committee does need. The gentleman from 
Alabama has it. He will submit it to you in writing. We ask for 
your response to be in writing.
    Mr. Meadows. And because of the time, we go to the ranking 
member for his closing statement.
    Mr. Cummings. Mr. Engler, what did you want to say?
    Mr. Engler. Very briefly. Thank you. I just want to put two 
short points on the record.
    Mr. Cummings. Sure.
    Mr. Engler. One is that there was a process prior to this 
committee hearing to prepare for it, which involved going over 
voluminous documents and involving an outside consultant at 
some point to, frankly, spin what cannot be spun.
    I want to go on the record to point out that I said--and I 
believe this is pretty close to a precise quote--I refuse to 
participate in this process.
    I am dedicated to the mission of the agency. I want to move 
forward. I hope to be back here before your committee and to 
work with the inspector general, but based on whether we're 
accomplishing the mission of the agency, not whether we're 
taking steps that have been described today to interfere with 
the mission of the agency.
    This agency has no credibility whatsoever to tell anyone 
outside the agency virtually anything if its internal practices 
around issues like the right to know, of not informing people 
about the actions of the agency--when we expect corporations 
and government agencies and others to take steps to inform the 
public and inform workers what materials they're working with, 
what the risks are, and we can't set a standard for good 
practice here?
    I pledge to you that that's why I'm here, that's what I'm 
going to work for. And I look forward to coming back to this 
committee and to being accountable to all the relevant 
stakeholders and the inspector general in the months ahead.
    Mr. Cummings. Mr. Engler, I really appreciate that.
    I see you shaking your head, Mr. Griffon. Do you feel the 
same way? Just yes or no, if you don't mind.
    Mr. Griffon. Yes. Yes. Absolutely.
    Mr. Ehrlich. And I feel the same way, sir.
    Mr. Cummings. Very well.
    I just--I want to thank you for that, your statement. And 
after this long hearing, to hear that is refreshing.
    And I think what happens in life so often is people can go 
in circles, and never getting off the merry-go-round. And going 
in those circles, you don't accomplish the things that you want 
to accomplish or fully accomplish.
    And I think what has happened is that we've gotten this--
the leadership here has basically become dysfunctional and has 
been dysfunctional for a long time. And it's interesting that 
the employees know that. They know it, and they figured it out. 
And it affects their lives. They're probably good people trying 
hard to be the very best that they can be. They take their jobs 
very seriously, and they want to make sure that they address 
the kind of important issues that you deal with. They want to 
do it effectively and efficiently. But then they're almost 
blocked and they're distracted, in many instances, because of 
all of this stuff that's happening at the top.
    And so, again, Mr. Chairman Moure-Eraso, I would ask that 
maybe, you know, when you get a chance after you leave here 
today, that you give some thought to taking an early retirement 
and let this agency go forward so it can do the things that it 
needs to do.
    And I want you to understand, I don't say that lightly. 
Very rarely have I asked anybody from this dais to leave. But I 
just think that this is so important. And I do think that you 
need to put a mirror up and ask the question, is it me? And I 
think the Vantage report and the findings and a lot of what 
we've heard here today points to you. And I hope that you'll 
consider that.
    Again, I thank you all.
    Mr. Meadows. I thank the----
    Mr. Moure-Eraso. May I respond or----
    Mr. Meadows. We are just doing closing statements at this 
point. You've had more than enough time to share your 
perspective, Dr.----
    Mr. Moure-Eraso. Thank you very much.
    Mr. Meadows [continuing]. Eraso. And so, I think at this 
point it is important that we bring this to a close under a 
number of different issues.
    One is, Mr. Engler, thank you. Thank you for your comment. 
It's not easy when you're on a Board to make those kind of 
comments, so thank you so much for hopefully giving us a fresh 
start.
    And to the employees, who may or may not be watching this 
particular hearing--the ranking member and I were talking about 
this while some of the other questioning was going on. We've 
got your back. And whether it's a whistleblower that is 
receiving retaliation or whether it's other issues within this 
agency that have not been properly handled, I can tell you that 
the ranking member and the chairman of the full committee, Mr. 
Chaffetz, are committed to working hand-in-glove to make sure 
that the employees get treated fairly.
    Some of what I've heard here today is very discouraging and 
would certainly make for very low morale, because what 
ultimately this has been about is the truth and power. And, 
sadly, both of those have been left, really, in the hands of 
the wrong people. And I find that very troubling. And so I'm 
looking forward to a new day where we'll have a new Chairman 
come before this committee and, indeed, everything would look a 
little bit brighter.
    I'm going to ask for unanimous consent for the following 
items to be put in the record: the letter from the American 
Chemistry Council to the committee; a letter from the United 
Steelworkers to the committee; a letter from the former CSB 
Board member William Wright to the committee; a letter from the 
former CSB Board member Gerald Poje to the committee; a letter 
from the former CSB Board member William Wright, a second one, 
to the committee; written testimony from the former CSB Board 
member Beth Rosenberg to the committee; a letter from the 
former CSB Board member William Wark to the committee; a letter 
from the former CSB Board member John Bresland to the 
committee; February 12, 2015, Vantage report titled ``Briefing 
to CSB Senior Leadership''; July 10, 2014, Carden Group report 
titled ``U.S. Chemical Safety Board Path Forward Overview''; 
July 7, 2014, letter to the President; Government in Sunshine 
Act 5 U.S.C. 522b; Chemical Safety Board Order No. 28; and a 
job posting on the USAJOBS for the new Senior Executive Service 
position of managing director at the Chemical Safety Board, 
posted on March the 2d, 2015; and the January 16, 2015, memo 
from the EPA inspector general to the President; and a February 
2d letter from the White House Counsel to this CSB Chairman.
    Without objection, those will be entered into the record.
    Mr. Meadows. And, with that, this committee hearing is 
adjourned.
    [Whereupon, at 12:16 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
